App. 1a
218 A.3d 543
Supreme Court of Rhode Island.
Dana GALLOP
v.
ADULT CORRECTIONAL INSTITUTIONS et al.
No. 2018-246-Appeal. (PC 10-6627)
|
November 14, 2019
Attorneys and Law Firms
Ronald J. Resmini, Esq., Adam J. Resmini, Esq., For
Plaintiff.
Michael W. Field, Department of Attorney General, For
Defendants.
Present: Suttell, C.J., Goldberg, Flaherty, Robinson,
and Indeglia, JJ.
OPINION
Justice Goldberg, for the Court.
This case came before the Supreme Court on October 2, 2019, on appeal by the plaintiff, Dana Gallop
(plaintiff or Gallop), from a Superior Court judgment
in favor of the defendants, the Adult Correctional Institutions, the State of Rhode Island, Ian Rosado (Rosado), and Matthew Galligan (Galligan), following the
entry of an order, after remand by this Court, that denied the plaintiff ’s motion to file a second amended
complaint. Before this Court, the plaintiff argues that

App. 2a
the trial court erred in (1) failing to address the plaintiff ’s argument that G.L. 1956 § 13-6-1 violates the Supremacy Clause of the United States Constitution, and
in failing to allow the plaintiff ’s longstanding state law
tort claims to proceed; and (2) denying the plaintiff ’s
motion to file a second amended complaint. We directed the parties to appear and show cause why the
issues raised in this appeal should not be summarily
decided. After considering the parties’ written and oral
submissions and reviewing the record, we conclude
that cause has not been shown and that this case may
be decided without further briefing or argument. For
the reasons set forth herein, we affirm the judgment of
the Superior Court.
Facts and Travel
This case arises out of an incident that allegedly
took place on or about April 26, 2010, while plaintiff
was held in pretrial detention at the ACI while awaiting trial on numerous counts stemming from a fatal
shooting in Providence in 2008. The plaintiff alleged
that he was attacked by Rosado, a fellow inmate, and
that he suffered lacerations and permanent facial scarring as a result. The plaintiff also alleged that the attack was made possible because, the day before the
attack took place, Rosado told Galligan, a correctional
officer, that he intended to carry out the attack. According to plaintiff, Galligan then informed various “John

App. 3a
Doe” defendants of Rosado’s planned attack.1 Finally,
plaintiff alleged that Galligan had abandoned his post
for eighteen minutes on April 26, 2010, to afford Rosado the opportunity to carry out the assault.
On May 12, 2010, plaintiff was convicted after a
jury trial of first-degree murder, felony assault, using
a firearm when committing a crime of violence, carrying a pistol without a license, and possession of arms
by a person convicted of a crime of violence or who is a
fugitive from justice. He was also declared a habitual
offender. The trial justice sentenced plaintiff to two
mandatory consecutive life sentences, plus an additional twenty-year sentence to be served consecutively
to the second life sentence, and two ten-year sentences
to run concurrently with the first life sentence. The
plaintiff was also sentenced, as a habitual offender, to
an additional twenty-five years, to be served after the
sentences on the underlying conviction, without the
possibility of parole. The plaintiff appealed, and this
Court affirmed the judgment of conviction on May 2,
2014. State v. Gallop, 89 A.3d 795, 806 (R.I. 2014) (Gallop I).
On November 10, 2010, plaintiff filed a civil complaint in the present case, naming the ACI, the state,
and various John Does as defendants, alleging negligence for failing to properly protect him. As part of that
1

These so-called “John Does” have never been identified and
are not part of this action. See Ensey v. Culhane, 727 A.2d 687,
690 (R.I. 1999) (noting that John Doe defendants must be named
and served with process within a reasonable time or may not be
considered parties to the case).

App. 4a
initial complaint, plaintiff also alleged several additional common law tort claims, including intentional
infliction of emotional distress, negligent infliction of
emotional distress, conspiracy and joint enterprise
resulting in assault and battery, implied breach of warranty, failure to maintain “protective responsibilities[,]”
and a violation of plaintiff ’s civil rights.
On April 11, 2013, with the statute of limitations
looming, plaintiff filed an amended complaint, adding
Rosado and Galligan as named defendants, with additional allegations concerning the circumstances under
which the alleged incident took place. Significantly,
plaintiff alleged the same tort claims that he alleged in
his original complaint and did not add any federal or
state constitutional claims.
The day before the trial’s scheduled start date, the
trial justice, sua sponte, raised the issue of § 13-6-1, the
civil death statute, based on the fact that plaintiff was
serving consecutive sentences of life imprisonment.
The defendants immediately moved to dismiss the case
in accordance with § 13-6-1, arguing that plaintiff was
deemed to be civilly dead and that, therefore, the Superior Court lacked jurisdiction over plaintiff ’s claims.
The plaintiff objected to the motion to dismiss and
sought leave to file a second amended complaint. The
proposed second amended complaint added a claim alleging violations by defendants under various statutory and constitutional provisions, including 42 U.S.C.
§ 1983; the Eighth and Fourteenth Amendments to the
United States Constitution; article 1, sections 2, 6, and

App. 5a
8 of the Rhode Island constitution, and G.L. 1956 §§ 42112-1 and 42-112-2 of the Rhode Island Civil Rights
Act. Counts two through six of the proposed second
amended complaint recited the same tort allegations
as in the original and first amended complaints, but
more clearly assigned responsibility for each tort to
specific actors.
Following a hearing on July 28, 2016, the trial
justice granted defendants’ motion to dismiss based
on the civil death statute, but she did not address
plaintiff ’s motion for leave to file a second amended
complaint. The plaintiff appealed, arguing before this
Court that § 13-6-1 did not require dismissal of his
complaint and that the trial justice erred in failing
to address his motion to file a second amended complaint. Gallop v. Adult Correctional Institutions, 182
A.3d 1137, 1141-45 (R.I. 2018) (Gallop II).
With respect to the civil death statute, this Court
declared in Gallop II that the Superior Court had no
authority to entertain plaintiff ’s action because plaintiff ’s civil rights were extinguished by operation of law
once his criminal conviction was affirmed. Gallop II,
182 A.3d at 1141. We held that “[t]he statute unambiguously declares that a person such as plaintiff, who
is serving a life sentence, is deemed civilly dead and
thus does not possess most commonly recognized civil
rights.” Id. We decided that the trial justice “prudently
and accurately dismissed the case[,]” and we declined
to read an exception into the statute for claims alleging

App. 6a
a violation of a prisoner’s civil rights. Id. at 1141, 1143.2
We also reiterated the commonly-understood principle
that “[r]epeal is the province of the Legislature.” Id. at
1141.
Significantly, there was no timely constitutional
challenge to the civil death statute, for negligence
claims, raised in the Superior Court or this Court; instead, plaintiff ’s argument was confined to the federal
civil rights actions. Gallop II, 182 A.3d at 1144. As a
result, we concluded that the complaint had been
properly dismissed. Id. at 1143. However, we decided
that the “trial justice should have addressed the plaintiff ’s second amended complaint before granting the
defendants’ motion to dismiss.” Id. at 1144. We noted
that “[t]his Court cannot review the trial justice’s
decision granting or denying a motion to amend for
abuse of discretion if the trial justice has not exercised
that discretion.” Id. at 1145. Accordingly, we held that
plaintiff was “entitled, at the very least, to a reasoned
decision on his motion for leave to file an amended
complaint.” Id. We vacated the judgment of the Superior Court and remanded the case with directions to
hear and decide plaintiff ’s motion to file a second
2

In arriving at this decision, however, we clarified that the
Superior Court was incorrect when it dismissed the case for lack
of subject-matter jurisdiction. Gallop v. Adult Correctional Institutions, 182 A.3d 1137, 1142 (R.I. 2018). Rather than being dismissed for lack of subject-matter jurisdiction, the case should
have been dismissed because it would have been “an excess of jurisdiction for the Superior Court to consider plaintiff ’s claims
when the Legislature has declared [the] plaintiff to be civilly
dead.” Id. at 1143 (emphasis added).

App. 7a
amended complaint. Id. We took no position on the
merits of plaintiff ’s motion to file a second amended
complaint, but we affirmed the dismissal of the first
amended complaint. Id.
On remand in the Superior Court, plaintiff presented his arguments in reverse order: He first asserted that, because § 13-6-1 is unconstitutional under
federal law, his claims should go forward. Alternatively,
plaintiff argued that, even if his federal civil rights
claims were disallowed, the tort claims should nonetheless proceed because the civil death statute is
unconstitutional. As to his motion to file a second
amended complaint, plaintiff argued that there would
be no extreme prejudice to defendants if the motion
was granted, because the proposed second amended
complaint merely clarified the tort claims raised in the
first amended complaint. The plaintiff also argued in
support of a liberal approach to allowing motions to
amend. Specifically, plaintiff argued that the amendment should be allowed because the addition of the
civil rights claim would not significantly change the
content or nature of the complaint and would not require any further discovery.
The defendants correctly pointed out that plaintiff ’s various federal and constitutional claims were
raised for the first time in the proposed second amended
complaint and were not properly before the trial justice. Although defendants acknowledged that Rule
15(a) of the Superior Court Rules of Civil Procedure
provides that leave to amend a pleading should be
freely given when justice so requires, they argued that

App. 8a
a proposed amendment that results in undue prejudice
or is unduly delayed or filed after the movant has had
sufficient opportunity to state a claim should give rise
to the denial of the motion to amend. Although mere
delay is an insufficient ground for denial of a motion to
amend a pleading, defendants argued that the delay in
the present case was unduly excessive and would result in prejudice. The defendants submitted that plaintiff had sufficient opportunity to raise the new claims
in the six years the case was pending, but he had failed
to do so and only sought to change the nature of the
case from negligence to civil rights and constitutional
violations when faced with dismissal on the eve of trial.
The defendants also argued that plaintiff had failed to
satisfy his burden of showing some valid reason for his
neglect and delay in moving to amend the complaint.
The trial justice ultimately denied plaintiff ’s motion to amend based on “the proximity to the trial, additional significant discovery, and other pleadings
needed in lateness of filing the motion[.]” The trial justice determined that “[t]he delay of filing the second
amended complaint would result in extreme prejudice
to the defendant” because it was filed on the eve of
trial, discovery had closed, trial strategy was developed, and witnesses were prepared. Finally, the trial
justice determined that plaintiff “failed to establish a
reasonable explanation for [his] delay in moving to
amend the complaint.” Before this Court, plaintiff argues that the trial justice erred in failing to address
plaintiff ’s argument that § 13-6-1 violates the Supremacy Clause, in failing to allow plaintiff ’s longstanding

App. 9a
tort claims to proceed, and in denying plaintiff ’s motion to file a second amended complaint.
Standard of Review
This Court has consistently held that “the decision
to grant or deny a motion to amend a complaint is
within the sound discretion of the hearing justice[.]”
Barrette v. Yakavonis, 966 A.2d 1231, 1236 (R.I. 2009).
Therefore, we afford “great deference to the trial justice’s ruling on a motion to amend.” Catucci v. Pacheco,
866 A.2d 509, 513 (R.I. 2005) (quoting Normandin v.
Levine, 621 A.2d 713, 715 (R.I. 1993)). This Court “will
not disturb [the] ruling unless the hearing justice committed an abuse of discretion.” Barrette, 966 A.2d at
1236.
Analysis
On appeal, plaintiff contends that his state law
claims must be allowed to proceed because § 13-6-1 is
unconstitutional under federal law and United States
Supreme Court precedent. The plaintiff also argues
that the trial justice erred in addressing his motion for
leave to file a second amended complaint before she
addressed the issue of the constitutionality of § 13-6-1.
He argues that the civil death statute should have
been invalidated first, then his motion to amend
should have been granted as to some or all of his state
law claims in counts two through six. The plaintiff is
mistaken and overlooks the fact that there was no complaint pending before the Superior Court, and, unless

App. 10a
the motion to file a second amended complaint was
granted, there was nothing for the trial justice to pass
upon.
Motion to Amend
We first address whether the trial justice properly
denied plaintiff ’s motion to amend. After careful review of the record, we are satisfied that the trial justice
did not abuse her discretion, and properly denied the
motion to amend.
The standard of review to be applied in evaluating
the decision to grant or deny a motion to amend a complaint is well settled, and the focus is whether there
was an abuse of discretion by the trial justice. Rule
15(a) provides, in pertinent part, that:
“A party may amend the party’s pleading once
as a matter of course at any time before a responsive pleading is served * * *. Otherwise a
party may amend the party’s pleading only by
leave of court or by written consent of the adverse party; and leave shall be freely given
when justice so requires.”
After a pleading has been amended once as a matter of course, “leave to amend a pleading lies within the
sound discretion of a trial justice,” and Rule 15(a) “liberally permits amendment absent a showing of extreme prejudice.” Weybosset Hill Investments, LLC v.
Rossi, 857 A.2d 231, 236 (R.I. 2004) (quoting Granoff
Realty II, Limited Partnership v. Rossi, 823 A.2d 296,
298 (R.I. 2003)). A lower court “need not grant leave to

App. 11a
amend a pleading when doing so would unduly prejudice the nonmoving party[,]” and “the question of
prejudice to the party opposing the amendment is central to the investigation into whether an amendment
should be granted.” Id. (brackets omitted) (quoting
Faerber v. Cavanagh, 568 A.2d 326, 329 (R.I. 1990)).
This Court has recognized that “the risk of substantial prejudice generally increases with the passage of
time.” RICO Corporation v. Town of Exeter, 836 A.2d
212, 218 (R.I. 2003).
Factors that indicate substantial prejudice if a
party were allowed to amend its claim include, but are
not limited to, undue delay in seeking to amend the
complaint without any reasonable explanation being
given, or when the amendment would require a significant amount of new discovery. Faerber, 568 A.2d at
330 (“An addition of a new claim close to trial when
discovery is essentially complete and trial strategy already planned invariably delays the resolution of a
case, and delay itself may be considered prejudicial especially where excessive delay has already occurred.”)
(deletion omitted) (quoting Andrews v. Bechtel Power
Corporation, 780 F.2d 124, 129 (1st Cir. 1985)). Both of
these factors are present in the case at bar.
Again, it is well settled that this Court’s review of
a trial justice’s decision to grant or deny a motion to
amend a complaint is deferential, and we “will not disturb [the] ruling unless the hearing justice committed
an abuse of discretion.” Barrette, 966 A.2d at 1236.
However, the courts are not vested with limitless discretion. Hogan v. McAndrew, 131 A.3d 717, 722 (R.I.

App. 12a
2016) (noting that the abuse of discretion standard
“does not suggest that this Court merely endorses the
findings made by the lower court”).
Rather, “[a]buse occurs when a material factor deserving significant weight is ignored, when an improper factor is relied upon, or when all proper and no
improper factors are assessed, but the court makes a
serious mistake in weighing them.” Hogan, 131 A.3d
at 722 (quoting Independent Oil and Chemical Workers
of Quincy, Inc. v. Procter & Gamble Manufacturing
Co., 864 F.2d 927, 929 (1st Cir. 1988)). In evaluating
whether the trial justice abused her discretion, we carefully review the record to determine that all material
factors have been properly acknowledged and weighed,
that improper factors were not relied on, and, generally, that the record demonstrates the trial justice set
forth some grounds that support her decision.
Our review of the record satisfies us that there
was no abuse of discretion by the trial justice. The
record reflects that she properly weighed all relevant
factors without allocating weight to any improper factor, such as the constitutionality of the statute that
was not before her, as discussed infra. There were
more-than-adequate grounds to support her decision.
The trial justice looked to our well-settled caselaw
as the ruling standard for motions for leave to file an
amended complaint, and properly applied the facts
from the record to arrive at her decision.
Simply put, the trial justice concluded that plaintiff ’s undue delay in seeking the amendment would

App. 13a
create substantial prejudice to defendants. Discovery
had closed at least eight months earlier, and the inclusion of the new claims would necessitate additional
discovery because the statutory claims were different
and more complex than the longstanding common law
tort claims. Having observed that “the case would really have to start from square one[,]” the trial justice
denied the motion “based upon the proximity to the
trial, additional significant discovery, and other pleadings needed in lateness of filing the motion[.]” We discern no error.
The record establishes that there were ample
grounds supporting the trial justice’s decision. We
agree that plaintiff ’s undue delay in bringing his new
claims would create substantial prejudice for defendants, and that no reasonable explanation for the delay
was ever provided by plaintiff. In Gallop II, we noted
that the Superior Court failed to rule on plaintiff ’s motion for leave to amend his complaint for the second
time, and held that “[w]e are of the opinion that the
plaintiff is entitled, at the very least, to a reasoned decision on his motion for leave to file an amended complaint.” Gallop II, 182 A.3d at 1145. We have before us
a well reasoned decision, and we are satisfied that the
motion to amend was properly denied.
The Plaintiff ’s Federal and Constitutional Law
Arguments
Next, we address plaintiff ’s efforts to advance
arguments that Rhode Island’s civil death statute is

App. 14a
unconstitutional on various grounds. In doing so, we do
not reach the merits. Rather, we set forth the reasons
that this issue is barred by this Court’s so-called “raiseor-waive” rule and procedural law.
The raise-or-waive rule is a fundamental rule in
this state that is “staunchly adhered to” by this Court.
Cusick v. Cusick, 210 A.3d 1199, 1203 (R.I. 2019) (quoting Rohena v. City of Providence, 154 A.3d 935, 938
(R.I. 2017)). “[I]t is well settled that a litigant cannot
raise an objection or advance a new theory on appeal if
it was not raised before the trial court.” Id. (quoting
Rohena, 154 A.3d at 938).
However, “[w]e have recognized that an exception
to the raise-or-waive rule arises when basic constitutional rights are involved[.]” Cusick, 210 A.3d at 1204
(quoting In re Miguel A., 990 A.2d 1216, 1223 (R.I.
2010)). For the exception to apply, “the alleged error
must be more than harmless, and the exception must
implicate an issue of constitutional dimension derived
from a novel rule of law that could not reasonably have
been known to counsel at the time of trial.” Id. (quoting
In re Miguel A., 990 A.2d at 1223); see State v. Burke,
522 A.2d 725, 731 (R.I. 1987) (providing that the exception may apply, for example, “when an intervening decision of this [C]ourt or of the Supreme Court of the
United States establishes a novel constitutional doctrine” during the course of a trial).
Here, plaintiff seeks to challenge § 13-6-1 on federal and state constitutional grounds. However, that
opportunity has passed, and the only issue before this

App. 15a
Court is whether the trial justice abused her discretion
when she denied plaintiff ’s motion for leave to file a
second amended complaint.
The sequence of events in the present case is
apparent from the record before us. Neither plaintiff
nor defendants raised the issue of Rhode Island’s civil
death statute and the impact it might have on the case
prior to trial. The trial justice raised the issue sua
sponte, and she appropriately continued the matter to
afford the parties an adequate opportunity to research,
brief, and argue the statute’s applicability. The defendants moved to dismiss, and plaintiff opposed that motion and moved to file a second amended complaint.
Before this Court in Gallop II, plaintiff argued
that the civil death statute is invalid under the Supremacy Clause “to the extent it impairs a plaintiff ’s
capacity to sue under 42 [U.S.C. §] 1983 and other civil
statutes” – statutes that he failed to name. However,
there were no federal civil rights claims before the trial
justice when she dismissed the complaint, and none
before this Court in Gallop II.
The raise-or-waive rule controls this issue, and the
narrow exception for a novel rule of law that could not
reasonably have been known to counsel at the time of
trial is not applicable. Rhode Island’s civil death statute has been on the books since it was enacted in 1909.
The plaintiff ’s opportunity to argue that, under the Supremacy Clause, the federal civil rights claims are not
barred by the state civil death statute would arise only

App. 16a
if those claims were allowed in a second amended complaint. They were not.
Because the only issue before this Court is whether
the trial justice abused her discretion when she denied
plaintiff ’s motion for leave to file a second amended
complaint, we reject this assignment of error. The
plaintiff ’s opportunity to challenge the civil death statute’s constitutionality before this Court was confined
to federal civil rights claims. Those claims were not before the trial court and are not before us.
Conclusion
For the reasons articulated in this opinion, we affirm the judgment of the Superior Court. The papers in
this case may be remanded to the Superior Court.

App. 17a
STATE OF RHODE ISLAND AND PROVIDENCE
PLANTATIONS
PROVIDENCE, SC.
DANA GALLOP
VS.
STATE OF RHODE
ISLAND DEPARTMENT
OF CORRECTIONS;
IAN ROSADO;
MATTHEW GALLIGAN

SUPERIOR COURT
)
)
)
) NO: PC-2010-6627
)
)
)
)

HEARD BEFORE THE HONORABLE
MS. JUSTICE SARAH TAFT-CARTER
JULY 23, 2018
APPEARANCES:
RONALD RESMINI, ESQUIRE
FOR THE PLAINTIFF
MICHAEL FIELD, ESQUIRE
FOR THE DEFENDANT
ANDREA IACOBELLIS, CSR
CERTIFICATION
I, Andrea Iacobellis, CSR, hereby certify that the
succeeding pages, 1 through 22 inclusive, are a true
and accurate transcript of my stenographic notes.
________________________________
ANDREA IACOBELLIS, CSR
Court Reporter

App. 18a
[3] Monday, July 23, 2018
(Morning session)
THE CLERK: Civil matter PC-2010-6627,
Dana Gallop v. Adult Correctional Institution.
Come forward, please.
MR. RESMINI:
THE COURT:
THE CLERK:
name for the record.

Good morning, your Honor.
Good morning.
Could you please state your

MR. RESMINI:

Ronald Resmini for the

plaintiff.
MR. FIELD: Michael Field for the State, defendants, your Honor.
THE COURT:
MR. RESMINI:

Is your client here?
No, your Honor.

THE COURT: Alright. This is down for a
motion to amend, on remand from the supreme court.
MR. RESMINI:
THE COURT:

Yes.
Do you want to argue the

case?
MR. RESMINI: Yes, your Honor, I want to
argue. As the Court is aware, this case has a very interesting history to it. At one point back the case was
reached for trial, the Court recognized that this case
conflicted with the civil death statute and the matter

App. 19a
was arguably dismissed. It went to the Supreme Court,
and the Supreme Court, generally speaking, upheld
your Honor on many of [4] her rulings; with the exception of the fact of what we’re here today. It’s on place
for motions to amend. What I will do now succinctly is
just address certain saline points that were brought
out by the state in their memorandum. Of interest,
which hasn’t really been elaborated but been referenced to, is the comment in an interrogatory that was
provided by my client that said he wasn’t sure whether
or not his civil rights were violated. I think it’s very
important for the Court to realize that certainly my client is not the one to define whether or not his civil
rights have been violated, even myself as the attorney
for the subject plaintiff is really not the final definition
as to whether or not one’s rights have been violated;
that would be up to the court, that would be up to the
jury, depending on what the situation happens to exist
at the time of the hearing and the trial.
So I don’t believe there’s any significant defect of
having that comment being considered to be a negative. What it certainly does suggest is that there is a
question as to whether or not his civil rights were violated.
Now, let’s transfer ourselves to the main issue under Rule 52 on the liberal interpretation of amending
the complaint. The history in Rhode Island, in fact [5]
every jurisdiction, in fact even in the United States Supreme Court rulings is there’s a very liberal review as
to allowing the motions to amend. I recall many years
ago in a case that I took to the Rhode Island Supreme

App. 20a
Court called Tacito vs. Mello, where the very succinct
and brief allegation that didn’t include venue, the Supreme Court indicated it wasn’t necessary to do so because the ruling in the review in our own book of civil
procedures, when it shows the form complaint, has a
very, very lax interpretation as to what happens to be
the complaint.
Of significance in the case, it was definitely addressed in the Supreme Court, it appears, is whether
or not plaintiff in his first complaint when he referenced his, I think it was violation of civil rights. Unfortunately, that terminology, even though it should be
connoted to a 1983 violation, has not been agreed to by
the Supreme Court. It appears that you need to mention Section 1983, just mentioning an individual’s violation of civil rights does not seem to be sufficient.
So, moving on from that. Now we talk to the, we
address the latitude and the flexibility and the discretionary powers of this Court in allowing a motion to
amend. Counsel for the State has cited three cases. I
believe it’s Faerber, Harodite and Carter. In each of
[6] those cases the State seems to want to say that that
case; or those cases, prevent the amendment in a case
such as this because of undue delay, and also in changing the significant content of the nature of the complaint. I am hard pressed to understand and realize
what additional discovery, witnesses or whatever
would be necessary in treating this matter as a violation of one’s civil rights. The principal parties in this
case have been deposed ad nauseam. It’s my clients, it’s
the individual who, you know, slashed my client’s

App. 21a
throat. It’s the guard at the ACI who left his post, and
there is nothing else really to be done in this case. In
actuality, this case could be tried on, you know, on a
civil rights case just as easily as a negligence case. So,
as much is attempting to be made about saying there’s
a huge distinction but it’s a distinction that I say
clearly is without a difference, that the case that they
refer to, on one of those three cases, had to do with employment discrimination, an entirely different, you
know, situation then what we have here. To claim employment discrimination you need to bring in all different types of witnesses that changes the contents of the
allegation in the first case. We do not have that situation here confronted before this Court.
So I say to this Court, to serve the ends of justice
[7] for not only, you know, the definition of justice, as
we’ve all learned it to be. I think it was Black’s Law
dictionary said that it’s a practical science having to do
with the affairs of life and instituted with the intentions to serve justice. The only way that justice would
be served in this case is for Mr. Gallop to have his day
in court and let the chips fall where they may, because
there’s been transgressions on his protection of safety,
that regardless of our definition of what an individual
is we all, we’re all made up of the same contents, and
we’re all considered to have the individual rights of
protection, regardless of what our past would bring forward.
So I would ask the Court in its discretion to implement Rule 52 and allow this case to go forward for trial.
Thank you.

App. 22a
MR. FIELD: Good morning, your Honor.
Much of the questions or much of the issues that are
put forth by the plaintiff have already been answered
by the Rhode Island Supreme Court. They’ve been answered in Gallop. The point that Mr. Resmini just
made about; there’s no additional discovery to be made
in this case, it’s essentially the same case that has been
brought forth for the last six years, last eight years
now. It was also answered by the Supreme Court.
[8] The Court noted in Gallop that the practice of
changing the entire nature of the case from a negligence claim to a civil rights action after trial was
scheduled to begin has been condemned by this Court,
and that’s precisely the issue that’s being put forth by
the plaintiff now.
This case has been a negligence claim since 2010,
when it was filed. This court noted it two years ago,
when this matter was originally before the court. The
Supreme Court noted it in it’s opinion several months
ago at various points, and perhaps most importantly,
the Court repeated this Court’s statements and this
Court’s observations that this was always a negligence
claim. This was never a 1983 claim. And your Honor’s
last sentence is it’s too late to amend, which the Court
noted, which the Supreme Court noted that your
Honor’s Observation was “correctly noted.”
Your Honor previously in 2016 did everything but
come to the final conclusion and the final sentence.
Your Honor’s prior observations made clear, as did the
Supreme Court, that the case law did not allow for, or

App. 23a
in the court’s exercise of discretion, allow for amendment. The Court has, the Rhode Island Supreme Court
has upheld amendments with less time. In particularly, Harodite, where there was only four years from
the time the [9] original complaint was filed until the
time of amendment. There was four years. The court
upheld that. So not only does the case law not allow it,
not only is the burden on the plaintiff to show that they
– to show and to allow for amendment. The court noted,
the Rhode Island Supreme Court noted in Faerber,
they cited a 1st circuit case, that when a considerable
period of time has passed between the filing of the complaint and the motion to amend, the Court’s have
placed the burden upon the movant to show some valid
reason for his neglect and delay. The plaintiff has not
shown any showing to satisfy that burden whatsoever.
So the case law clearly favors the State on this point.
And in addition to the case law, and I don’t think
this point should be overlooked at all. The evidence
here doesn’t provide for or require amendment. This is
a situation where the plaintiff is coming forth with a
federal claim. There’s not been any evidence that’s
been discovered that there’s a federal violation of any
of the plaintiff ’s rights. Mr. Resmini already noted interrogatory 12, where the plaintiff has said that he’s
not sure if his civil rights have been violated. Regardless of whatever gloss the plaintiff puts on that, there
is no evidence that the plaintiff came forward in that
interrogatory, that was answered with legal [10] counsel’s assistance, that showed any evidence of a civil
rights violation.

App. 24a
The proposed second amended complaint, which is
what we’re here before, actually goes against the plaintiff ’s whole theory. Paragraph 13 says on April 26,
2010, which is the day of incident, defendant Galligan
advised defendant John Doe, that defendant Rosado
was going to assault the plaintiff, and the complaint
makes clear that the John Doe that the plaintiff is referring to are. correctional officers. The allegation in
the second amended complaint that Matthew Galligan,
the correctional officer, advised other correctional officers, is clearly inconsistent with some sort of a deliberate indifference or constitutional violation type of
theory. And even in the memo that’s before the Court,
the plaintiff ’s memo, the second paragraph on Page 1,
notes that the basic premise of this action is that
prison guards are charged with the duty under state
and federal law to reasonably protect inmates incarcerated at the ACI from injuries or assaults by other
inmates. The plaintiff is still trying to plead a negligence case. Clearly they’re trying to show and trying to
demonstrate a federal claim by trying to put a federal
claim in a negligence pay. And amendment in this case
with a federal claim is no more appropriate than the
amendment, and the facts no more [11] demonstrated,
that an amendment would be for a breach of contract
action. So for those reasons we ask that the court deny
the motion.
THE COURT: Thank you. Before this court
for decision is the plaintiff ’s motion to file a second
amended complaint, and the defendant’s objection. Jurisdiction is pursuant to Superior Court Rule 15. Facts

App. 25a
are as follows: On or about April 26, 2010, the Plaintiff,
Dana Gallop, was attacked by a fellow inmate at the
ACI. As a result, the plaintiff sustained lacerations and
it is alleged permanent scaring to his face. The plaintiff
alleges that on the day before the attack, Mr. Rosado
told Officer Matthew Galligan, a correctional officer at
the ACI, that Rosado intended on attacking the plaintiff. The plaintiff alleges that Officer Galligan abandoned his post for 18 minutes, allowing such attack.
The reason for which plaintiff was being held at
the ACI was for his conviction on first degree murder,
felony assault, use of a firearm when committing a
crime of violence, carrying a pistol without a license
and possession of a firearm by a person convicted of a
crime of violence who is a fugitive from justice. These
convictions, he was convicted of these and he was sentenced to two consecutive life sentences, plus an [12]
additional 20 years to be served consecutively; two, 10
year, sentences and as a habitual offender 25 years to
serve.
The plaintiff timely appealed his conviction to the
Rhode Island Supreme Court, where it was affirmed on
May 2nd, 2014 in State v. Gallop 89, A.3d, 795. The
Plaintiff filed this complaint in the Rhode Island Superior Court on November 10, 2010, alleging two counts
of negligence against the defendant at the ACI, State
of Rhode Island and various John Does. The civil case
cover sheet accompanying the plaintiff ’s complaint
listed the nature of the proceeding as a personal injury.

App. 26a
On April 12, 2013, the plaintiff filed an amended
complaint adding defendants, Ian Rosado and Matthew Galligan, as well as two additional counts for personal injury sustained by a person in connection with
the attack. Discovery commenced and was completed
on or before the pretrial order date of November 20,
2015.
On November 20, 2015, a control conference was
held, as a result a pretrial order was filed ordering the
parties to list all complex legal issues and a pretrial
memorandum that was to be filed before the Court.
On May 10, 2016, the plaintiff filed his pretrial
memorandum, which did not list or mention any
claims involving violations of federal constitutional
law, state [13] constitutional law or plaintiff ’s civil
rights, based on any federal or state statute.
The plaintiff ’s memorandum identified claims
sounding in negligence only, that’s listed on the pretrial memorandum, plaintiff ’s – at Page 2. A trial date
was set for June 23, 2016. At the pretrial conference
held prior to the trial, the jurisdictional issue of the
civil death statute, Rhode Island General Law 361, was
raised by the trial judge.
The parties were given an opportunity to brief and
argue the issue. That same day the defendant filed a
motion to dismiss, based on the civil death statute. The
plaintiff objected.
On July 12, 2016, the plaintiff filed a motion to file
a second amended complaint alleging claims pursuant

App. 27a
to 42 U.S.C. Section 1983 and 1988, 8th and 14th
amendments to the United States Constitution, and a
violation of Rhode Island Constitution and civil rights
and Rhode Island common law. The Court held a hearing on July 28th and granted the defendant’s motion to
dismiss, based on the civil death statute. The plaintiff
timely appealed on August 2nd, 2016, that was the
date of the appeal.
On May 21, 2018, the Rhode Island Supreme
Court issued its opinion affirming in part, reversing in
part [14] and vacating in part the judgment of the superior court. The Court found that the issue in this case
is not – the court listed several issues in this case, but
remanded it on the issue with respect to the motion to
amend. Superior Court rules of civil procedure, Rule
15, applies in these type of motions and that rule
should be it should liberally allow amendment acts of
showing of extreme prejudice Weybosset Hills LLC
v. Rossi, 857 A.2d 231 at 236. Westburger v. Pepper
583 A.2d 77. The decision to grant or deny a motion to
amend is confined to some discretion of the trial judge.
Our Supreme Court has stated that the true spirit of.
the rules is fighting words and these should be freely
granted when justice requires Richard v. John Hancock 113 R.I. 528.
However, a trial judge may deny the motion to
amend because of undue delay, prejudice, bad faith, futility of the amendment or some other compelling reasons Medeiros v. Cornwall, 911 A.2d 251.

App. 28a
With respect to the parties delaying the right to
amend, their delay is insufficient as a reason to deny
an amendment. The hearing judge must find that such
delay creates substantial prejudice to the opposing
party, Paradise Industries, Inc. 224 A.3rd at 529.
Therefore, when deciding whether to allow an
amendment, the trial judge must inquire as to the degree [15] of prejudice, if any, the opposing party would
suffer should the Court permit an amendment Faerber v. Cavanaugh, 568 A.2d 326 at 329. Moreover,
the burden rests on the party opposing the motion to
show it would incur substantial prejudice if the motion
to amend was granted, Wachsberger, 583 A.2d at 78
quoting Babbs v. John Hancock Mutual Life, 507
A.2d, 1347.
In this case, the plaintiff argued that its motion
should be granted because grounds for the denial
based on undue delay are insufficient and have not
caused extreme prejudice to the defendant. The plaintiff asserts that there is no new cause of action requiring significant work or preparation because the alleged
new theory of liability was specifically plead in Count
2 of the plaintiff ’s amended complaint filed on April 12,
2013. The defendant argues that the plaintiff is precluded from asserting causes of action, and under the
theories of recovery in the second amended complaint
in accordance with relevant statutes of limitations, the
defendant asserts that the plaintiff ’s motion to – the
motion is a product of undue delay and the allowance
of which would cause extreme prejudice to the defendant. The defendant notes that the additional claim

App. 29a
alleged in the second amended complaint against Officer Galligan in his individual and official capacity
will require the [16] reopening of significant discovery
but that a new discovery would be frustrated by the
memories of the parties, the relevant witnesses, due to
the six year gap that’s occurred.
In addition, the defendant argues that the plaintiffs have alleged no reasonable explanation to justify
the six year delay. Here, the plaintiffs first argue that
in the memo that there is no cause of action asserted
because the theory was plead in Count 2 of the. April
2nd, 2013 amended complaint where the plaintiff used
the word “violation of civil rights”. While the. Court
recognizes that the plaintiff did assert these words into
the complaint, the plaintiff failed to proceed on any
theory on this action upon the theory that the civil
rights were violated. The plaintiff failed to conduct any
discovery on that theory, and today, the plaintiff argues
that the answer “not sure what civil rights have been
violated” is not conclusive of the ultimate issue.
While the Court recognizes the role of the factfinder, the facts remain that the plaintiff did not move
forward with the claim during the pretrial procedure,
and it’s the Court’s experience that most answers to
interrogatories would have listed facts upon which the
plaintiff relies in alleging a violation of the [17] civil
rights, if they were proceeding on it.
The plaintiffs failed to brief this; any civil right issue in the pretrial memorandum. The plaintiff did
nothing to alert the defendants or the Court that this

App. 30a
case involved a violation of the civil rights and that
would be a topic at trial. Well, it could be argued that
the civil rights violation was plead but certainly was
not pursued as a cause of action. The Court finds instructive the case of Pullar v. Cappelli, 148 A.3rd
551, (RI 216). In that case our Supreme Court held
that the defense of lack of personal jurisdiction may be
forfeited or abandoned through unwarranted delay or
subsequent conduct in defending the case, even where
it was pled in the complaint or answer.
In Pullar, the defendant filed an answer averring
lack of jurisdiction, lack of personal jurisdiction. The
case proceeded to over a period of three years with the
parties engaged in discovery, court index arbitration,
and the case had been set for trial before the defendant
finally filed a motion for summary judgment, based on
the theory of lack of personal jurisdiction. The court
found that the delay produced a “unfair hardship on
the plaintiffs, it subject them to a disadvantage of attempting to assemble proof, the effectiveness of which
may well be severely deluded by the passage of time”
and [18] see the Pullar case, quoting Vozeh v. Good
Samaritian, F.R.D. 143.
Additionally, the courts found that even though
the defendant asserted the jurisdictional affect in the
answer, the defense was not presented – the defense
was not preserved for perpetuity. That’s Pullar, quoting Yeldell v. Tutt. The Court noted that the defense
may be lost by failure to assert seasonably by formally
submission in cause or submission through conduct.

App. 31a
While the Court recognizes that Rule 8 requires a
short and plain statement of the claims showing that
the pleading is entitled to relief, the case rings similar.
This case rings similar to the Pullar case. Here, the
case was the subject of discovery and the plaintiff
failed to answer the same with an eye towards the civil
rights claim, to the extent that the plaintiff failed to
proceed in this matter, the claim is waived and forfeited.
With respect to extreme prejudice and undue delay, in Wachsberger, W-a-c-h-s-b-e-r-g-e-r, at 583 A.2d
at 79. The Rhode Island Supreme Court held that in
order to deny a motion to amend on the basis of delay
“the trial justice must first find that such delay creates
substantial prejudice to the opposing party.” As to such
a finding, the denial cannot be upheld, at the same
time [19] it should also be born in mind that we have
explicitly observed that the risk of substantial prejudice generally increases with the passage of time.
Harodite case, 24 A.3d. 514, RICO CORP v. Town
of Exeter, 836 A.2d, 212. In Faerber, 568 A.2d at
329, the Supreme Court examined what constitutes
undue delay. In it’s analysis the Court adopted the
holding in Carter v. Supermarket General Corporation, 684 F.2d 187 at 192, noting that when a considerable period of time has passed between the filing
of a complaint and motion to amend, courts have
placed the burden upon the movant to show that some
valid reason for neglect and delay exists, quoting
Carter at 192.

App. 32a
Here, the motion was filed. The motion to amend
was filed on the eve of trial, after the trial judge raised
the issue of the civil death statute. The court was assigned. The trial was assigned to a date certain of June
23, 2016. Discovery had closed at least eight months
prior to the filing of the motion. Trial strategies had
been planned and witnesses had been prepped. Any
continuance, based upon the addition of the constitutional challenge, would necessitate the reopening of
discovery. These claims are vastly different and more
complex.
In addition, the plaintiff seeks punitive damages
in the new complaint. The defendant’s excessive delay
would [20] also result in witnesses who may not remain responsive to the state inquiries would also exist.
The defendant knows that the witnesses in the
criminal action were incarcerated at the time of the alleged assault, and in many instances former inmates
are transients. Seeking them out now would require
great efforts at the defendant’s expense.
Additionally, these witnesses who are available
now are at a distinct disadvantage if the case is continued because the event occurred more than eight years
ago. The loss of memory over time of the events will
cause an extreme prejudice to the defendant as the
Harodite case at 218.
Here a delay in the trial will result in the defense
conducting new significant work in preparation of substantial claims, as well as the punitive damage claim
now alleged by the plaintiff. This would clearly result

App. 33a
in extreme prejudice. See Granoff v. Rossi, 823 A.2d
296, 298 and Vincent v. Musone 572 A.2d, 280.
The plaintiff is changing the entire nature of the
case from a negligence claim to a civil rights action,
while also adding a claim for punitive damages after
the trial was scheduled to begin. This would result in
the reopening of discovery and the commencement of
legal research on all issues; including the formation of
[21] defense and defense strategy, adding additional
claims based on the constitutional violation. The
Rhode Island Civil Rights Act and punitive damages at
this juncture clearly shifts the focus of this case, would
require additional significant discovery and dispositive
pleadings to be filed and heard and would require the
defendant to re-strategize in order to prepare the defendant in theory. That’s the Harodite case at 532. No
discovery pertaining to these newly raised claims the.
plaintiff now seeks to press has been conducted over
this time frame. In addition, the plaintiff failed to list
either federal and state constitutional claims or the
civil rights claim under the “complex legal issues” section in the pretrial memorandum. Punitive damages
were not listed there also. Notably, the plaintiff waited
years to clarify the counts, which he now seeks to add
into the second amended complaint of which he had
significant opportunity to do so before discovery closed
and the trial commenced.
Moreover, if the plaintiff were allowed to amend
the amended complaint to add these new claims, the
case would really have to start from square one. Officer
Galligan may consider whether the suit would be

App. 34a
removed to a federal court, that’s one issue one of the
defendants would have to consider at 28 U.S.C. Section 1441.
[22] Moreover, the plaintiff has not given the court
a reasonable explanation for his delay in seeking to
amend the complaint. The filing of this motion can be
for no other purpose than to survive the defendant’s
motion to dismiss, and that’s in the Supreme Court
opinion at 10.
Therefore, based upon the proximity to the trial,
additional significant discovery, and other pleadings
needed in lateness of filing the motion, the plaintiff ’s
motion to file a second amended complaint is denied.
The delay of filing the second amended complaint
would result in extreme prejudice to the defendant.
The plaintiff ’s motion was filed on the eve of trial, after
the closure of discovery, after trial strategy had been
planned and after witnesses had been prepped.
Moreover, the plaintiffs failed to establish a reasonable explanation for its delay in moving to amend
the complaint. For these reasons, the Court denies the
motion to amend the second amended complaint.
Thank you.
A-D-J-O-U-R-N-E-D

App. 35a
182 A.3d 1137
Supreme Court of Rhode Island.
Dana GALLOP
v.
ADULT CORRECTIONAL INSTITUTIONS et al.
No. 2016-278-Appeal.
|
(PC 10-6627)
|
May 8, 2018
Attorneys and Law Firms
For Plaintiff: Ronald J. Resmini, Esq., Providence
For Defendants: Ariele Yaffee, Special Assistant Attorney General, Michael Field, Assistant Attorney General, Providence
Present: Suttell, C.J., Goldberg, Flaherty, Robinson,
and Indeglia, JJ.
OPINION
Justice Goldberg, for the Court.
This case came before the Supreme Court on February 14, 2018, on appeal by the plaintiff, Dana Gallop (plaintiff or Gallop), from an order entered in
the Superior Court granting the State defendants’

App. 36a
(defendants or the State) motion to dismiss based on
G.L. 1956 § 13-6-1, Rhode Island’s civil death statute.1
Before this Court, plaintiff argues that: (1) the
trial court erred in ruling that the civil death statute
required dismissal of the complaint; (2) the trial court
erred because the civil death statute in Rhode Island,
to the extent that it impairs a person’s capacity to sue
under 42 U.S.C. § 1983, is invalid under the Supremacy
Clause of the United States Constitution; (3) any state
law that precludes access to state remedies available
to litigate claims for alleged violations of any federal
rights under color of law is invalidated by § 1983; and
(4) the trial court erred in ruling that this case was not
a civil rights action and in failing to address plaintiff ’s
motion for leave to file a second amended complaint.
For the reasons set forth herein, we affirm in part and
reverse in part, and vacate the judgment of the Superior Court.

1

General Laws 1956 § 13-6-1, also known as the civil death
statute, provides:
“Every person imprisoned in the adult correctional institutions for life shall, with respect to all rights of
property, to the bond of matrimony and to all civil
rights and relations of any nature whatsoever, be
deemed to be dead in all respects, as if his or her natural death had taken place at the time of conviction.
However, the bond of matrimony shall not be dissolved,
nor shall the rights to property or other rights of the
husband or wife of the imprisoned person be terminated or impaired, except on the entry of a lawfully obtained decree for divorce.”

App. 37a
Facts and Travel
The plaintiff has alleged that, on or about April 26,
2010, while he was being held as a pretrial detainee at
the Adult Correctional Institutions (ACI), he was attacked by a fellow inmate, Ian Rosado (Rosado). As a
result of this attack, plaintiff suffered lacerations and
permanent scarring on his face. In his complaint,
plaintiff alleges that Rosado, on the day before the attack, told defendant Matthew Galligan (Galligan), a
correctional officer at the ACI, that he was going to attack plaintiff. The plaintiff has also alleged that Galligan informed various John Doe defendants of Rosado’s
planned attack, and that Galligan abandoned his post
for eighteen minutes on April 26, 2010, in order to provide Rosado with an opportunity to assault plaintiff.2
On May 12, 2010, plaintiff was convicted of the following crimes, for which he was being detained: firstdegree murder, felony assault, using a firearm when
committing a crime of violence, carrying a pistol without a license, and possession of arms by a person convicted of a crime of violence or who is a fugitive from
justice. He was subsequently declared a habitual offender. The trial justice sentenced plaintiff to two consecutive life sentences, plus an additional twenty-year
2

These John Doe defendants are not before the Court. Having failed to identify them during discovery, plaintiff is precluded
from proceeding against them. See Ensey v. Culhane, 727 A.2d
687, 690 (R.I. 1999) (“The complaint does refer to a number of unnamed state police officers who are characterized as John Does.
Nevertheless, unless these John Doe defendants are named and
served with process within a reasonable time after their identities
become known, they may not be considered parties to the case.”).

App. 38a
sentence to be served consecutively to the second life
sentence, two ten-year sentences to run concurrently
with the first life sentence, and, as a habitual offender,
to an additional twenty-five-year sentence, to be served
after the other sentences and to be served without the
possibility of parole. Thereafter, on November 10, 2010,
plaintiff filed an initial civil complaint alleging negligence on the part of defendants for the April 26, 2010
attack. The plaintiff then filed an amended complaint
on April 12, 2013. The plaintiff timely appealed his
conviction, and this Court affirmed the conviction.
State v. Gallop, 89 A.3d 795 (R.I. 2014). Final judgment
of conviction entered on May 2, 2014. The civil action
proceeded in the ordinary course.
The day before trial was scheduled to commence,
the trial justice sua sponte raised the issue of the civil
death statute, in light of plaintiff ’s sentences of life imprisonment. The defendants immediately responded
with a motion to dismiss the case in accordance with
§ 13-6-1, arguing that plaintiff was deemed civilly dead
and that, therefore, his civil rights and property rights
effectively were terminated. On July 12, 2016, plaintiff
filed a motion for leave to file a second amended complaint, which proposed to add a claim for violations of
plaintiff ’s constitutional rights under color of law. The
defendants objected, arguing that it would cause undue delay, futility, and prejudice to defendants. The
plaintiff also objected to defendants’ motion to dismiss
the case based on § 13-6-1, arguing that: (1) the civil
death statute was not applicable to this case; (2) the
civil death statute in Rhode Island is invalid under the

App. 39a
Supremacy Clause to the extent that it impairs plaintiff ’s capacity to sue under § 1983; and (3) § 1983 invalidates any state law that precludes access to state
remedies.
On July 28, 2016, the trial justice granted defendants’ motion to dismiss based on the civil death
statute, declaring that the Superior Court had “no jurisdiction to hear this case. Therefore, the complaint is
dismissed.” The trial justice did not address plaintiff ’s
motion for leave to file a second amended complaint.
The plaintiff timely appealed. Before this Court, plaintiff argues that § 13-6-1 does not require dismissal of
his complaint, and that the trial justice erred in failing
to address his motion to file a second amended complaint.
Standard of Review
A motion to dismiss under Rule 12(b)(1) of the
Superior Court Rules of Civil Procedure “questions a
court’s authority to adjudicate a particular controversy
before it.” Boyer v. Bedrosian, 57 A.3d 259, 270 (R.I.
2012). This Court reviews a trial justice’s decision on a
Rule 12(b)(1) motion de novo. Id. In this instance, the
Court “is not limited to the face of the pleadings. A
court may consider any evidence it deems necessary to
settle the jurisdictional question.” Id.
This Court consistently has held “that the decision
to grant or to deny a motion to amend a complaint is
confided to the sound discretion of the hearing justice.”
Harodite Industries, Inc. v. Warren Electric Corporation,

App. 40a
24 A.3d 514, 529 (R.I. 2011). “[W]e afford ‘great deference to the trial justice’s ruling on a motion to amend.’ ”
Id. (quoting Catucci v. Pacheco, 866 A.2d 509, 513 (R.I.
2005)). This Court “shall not disturb that decision unless it constitutes an abuse of discretion.” Normandin
v. Levine, 621 A.2d 713, 715 (R.I. 1993).
Analysis
The Civil Death Statute
The loss of civil status as a form of punishment is
a principle that dates back to ancient societies. Gabriel
J. Chin, The New Civil Death: Rethinking Punishment
in the Era of Mass Conviction, 160 U. Pa. L. Rev. 1789,
1795 (2012). The ancient Greeks were among the first
to divest criminals of their civil rights, “including the
right to appear in court, vote, make speeches, attend
assemblies, and serve in the army.” Bogosian v. Vaccaro, 422 A.2d 1253, 1255 n.1 (R.I. 1980). The rationale
behind the enactment of civil death legislation was
originally based on the principle that a person convicted of a crime was dead in the eyes of the law. See
Chin, 160 U. Pa. L. Rev. at 1795. Rhode Island adopted
its civil death statute in 1909. See G.L. 1909, ch. 354,
§ 59. By 1939, eighteen states still had civil death statutes in effect. Chin, 160 U. Pa. L. Rev. at 1796; see also
Civil Death Statutes-Medieval Fiction in a Modern
World, 50 Harv. L. Rev. 968, 968 n.1 (1937). While statutes imposing collateral consequences for convicted
persons have almost all but vanished, New York, the
Virgin Islands, and Rhode Island still retain civil death

App. 41a
statutes for persons sentenced to life imprisonment.
Chin, 160 U. Pa. L. Rev. at 1798; See § 13-6-1; N.Y. Civ.
Rights Law § 79-a(1); V.I. Code Ann. tit. 14, § 92. Repeal is the province of the Legislature.
At issue in this case is not whether the Superior
Court has subject-matter jurisdiction over this claim,
but whether the Court has authority to hear the merits
of plaintiff ’s case in light of § 13-6-1. We answer this
question in the negative. The civil death statute
plainly states:
“Every person imprisoned in the adult correctional institutions for life shall, with respect
to all rights of property, to the bond of matrimony and to all civil rights and relations of
any nature whatsoever, be deemed to be dead
in all respects, as if his or her natural death
had taken place at the time of conviction.” Section 13-6-1 (emphasis added).
This Court reviews questions of statutory interpretation de novo. See State v. Hazard, 68 A.3d 479, 485
(R.I. 2013). “In matters of statutory interpretation our
ultimate goal is to give effect to the purpose of the act
as intended by the Legislature.” Id. (quoting Alessi v.
Bowen Court Condominium, 44 A.3d 736, 740 (R.I.
2012)). In cases such as this, “when the language of a
statute is clear and unambiguous, this Court must interpret the statute literally and must give the words of
the statute their plain and ordinary meanings.” Id.
(quoting Alessi, 44 A.3d at 740).

App. 42a
We are of the opinion that § 13-6-1 is clear and unambiguous on its face and should be construed according to its plain and ordinary meaning, as intended by
the Legislature. See Hazard, 68 A.3d at 485. The statute unambiguously declares that a person such as
plaintiff, who is serving a life sentence, is deemed civilly dead and thus does not possess most commonly recognized civil rights. Section 13-6-1. The Legislature has
enumerated certain exceptions to § 13-6-1—“[h]owever, the bond of matrimony shall not be dissolved”—
but there is no exception for claims impacting a prisoner’s civil rights. We decline to read such an exception
into the statute. Our interpretation of § 13-6-1 leads to
the necessary and logical conclusion that the Superior
Court had no authority to hear this case, because
plaintiff ’s civil rights were extinguished by operation
of law once his conviction became final when it was affirmed on May 2, 2014.
The plaintiff points to Vaccaro, and argues that his
claim is not barred by § 13-6-1 because his conviction
was not final until three-and-a-half years after he filed
his initial complaint in this case. See Vaccaro, 422 A.2d
at 1254. The plaintiff ’s reliance on Vaccaro is misplaced. See id. In Vaccaro, this Court held only that
“the civil-death proviso found in [§] 13-6-1 cannot be
triggered until such time as there has been a final
judgment of conviction.” Id. Similar to the defendant
in Vaccaro, the chronology of this case does not benefit
plaintiff. See id. Once plaintiff’s conviction became final
on May 2, 2014, the proviso in § 13-6-1 was triggered,
thus rendering his case incapable of adjudication at

App. 43a
the hearing held on July 28, 2016—over two years from
the time plaintiff was deemed civilly dead. We also distinguish this case from Vaccaro based on the fact that
it was Vaccaro, a defendant in a civil case, who sought
to invoke immunity from a judgment ordering him to
pay a real estate commission to the plaintiff, rather
than a plaintiff seeking to assert a legal right. Id. at
1253-54. This Court specifically differentiated between
the two scenarios, stating that “[§] 13-6-1 was intended
to be a limitation on the assertion of any rights by a
prisoner serving a life sentence rather than a shield
that would insulate him or her from civil liability.” Id.
at 1254.
Subject-Matter Jurisdiction
Although the trial justice in this case raised the
issue of the civil death statute sua sponte, on the eve of
trial, which led to the dismissal of the case—a practice
this Court generally frowns upon—she appropriately
notified the parties and afforded them ample opportunity to brief the issue; and, in light of the conclusive
effect of § 13-6-1 on this case, she was constrained to
do so. However, the trial justice and both parties incorrectly identified the issue in this case as lack of subjectmatter jurisdiction. The Superior Court has exclusive
original jurisdiction over actions at law in which the
amount in controversy is at least $10,000. See G.L.
1956 § 8-2-14. Clearly, “subject-matter jurisdiction is
an indispensable requisite in any judicial proceeding.”
Long v. Dell, Inc., 984 A.2d 1074, 1079 (R.I. 2009) (quoting Newman v. Valleywood Associates, Inc., 874 A.2d

App. 44a
1286, 1288 (R.I. 2005)). “Subject-matter jurisdiction is
the very essence of the court’s power to hear and decide
a case”; it has been defined as “jurisdiction over the nature of the case and the type of relief sought; the extent
to which a court can rule on the conduct of persons or
the status of things.” Id. (quoting Black’s Law Dictionary 931 (9th ed. 2009)). While the Superior Court had
exclusive original subject-matter jurisdiction to hear
the case at bar, whether the court has the authority to
do so in light of the statutorily mandated disability is
the crux of the issue.
This Court has drawn a distinction between subject-matter jurisdiction and the authority of the court
to proceed. See Chase v. Bouchard, 671 A.2d 794, 79596 (R.I. 1996); Hartt v. Hartt, 121 R.I. 220, 226, 397
A.2d 518, 521 (1979). In Hartt, this Court held that the
Family Court acquired subject-matter jurisdiction over
the matter in that case by statute, G.L. 1956 § 15-1115, and thus any error assigned to that court was by
an excess of jurisdiction and not by acting without subject-matter jurisdiction. Hartt, 121 R.I. at 225-26, 397
A.2d at 521, 522. This Court distinguished between
subject-matter jurisdiction, acting in excess of jurisdiction, and mere error:
“These distinctions have often proved difficult
to draw. The meaning of the term ‘excess of jurisdiction’ has been especially elusive. An order in excess of jurisdiction in the context of
collateral attack has been defined as one
which the court has not the power under any
circumstances to make or render. * * * Such

App. 45a
excess of authority or power is said to be more
akin to a want of jurisdiction over the subject
matter * * * than to mere error. * * * As a
practical matter, however, once a court has jurisdiction over the subject matter and person,
it is virtually impossible to distinguish acts in
excess of jurisdiction from mere error.” Hartt,
121 R.I. at 226-27, 397 A.2d at 522.
This Court went on to provide illustrative examples of acting in excess of jurisdiction rather than acting without subject-matter jurisdiction:
“Thus, if a probate court, invested only with
the authority over wills and the settlement of
estates of deceased persons, should proceed to
try parties for public offen[s]es, jurisdiction
over the subject of offen[s]es (would be) entirely wanting in the court * * *. But if on the
other hand a judge of a criminal court, invested with general criminal jurisdiction over
offen[s]es committed within a certain district,
should hold a particular act to be a public offen[s]e, which is not by law made an offen[s]e,
and proceed to the arrest and trial of a party
charged with such act, * * * those acts would
be in excess of his jurisdiction * * * (and) these
are particulars for his judicial consideration,
whenever his general jurisdiction over the
subject-matter is invoked.” Id. at 228-29, 397
A.2d at 522-23.
Similarly, in Chase, this Court upheld its holding
in Hartt distinguishing “between the absence of [subject-matter] jurisdiction in the fundamental sense and
the commission of an error for which a court might be

App. 46a
corrected on appeal, such as an evidentiary ruling or
the failure to give effect to a condition precedent or to
a defense properly raised by a party to a litigation.”
Chase, 671 A.2d at 796. Ultimately in Chase, this Court
declared void its previous caselaw holding that the failure to comply with a condition precedent deprived the
Superior Court of subject-matter jurisdiction, and instead held that:
“The Superior Court of Rhode Island is a trial
court of general jurisdiction. It is granted subject-matter jurisdiction over all cases unless
that jurisdiction has been conferred by statute upon another tribunal * * * [and] the failure to file an account did not and could not
deprive the Superior Court of jurisdiction to
consider * * * the case on its merits.” Id. (emphasis added).
In the case at bar, the Legislature has unambiguously mandated that persons serving a life sentence
are prohibited from asserting civil actions. Section 136-1. The plaintiff does not fall under any exception to
§ 13-6-1, as prescribed by the Legislature; thus he is
without recourse. Under our holdings in Hartt and
Chase, it is clear that the Superior Court is vested with
subject-matter jurisdiction, in the fundamental sense,
over plaintiff ’s claims; however, it would have been error and an excess of jurisdiction for the Superior Court
to consider plaintiff ’s claims when the Legislature
has declared plaintiff to be civilly dead. We cannot imagine a case in which the Superior Court is divested
completely of its statutorily-granted subject-matter

App. 47a
jurisdiction. We do, however, hold that, in cases such as
this, it would be error for the Superior Court to proceed. We conclude that the trial justice prudently and
accurately dismissed the case.
The Second Amended Complaint
On appeal, plaintiff argues that the trial justice
erred in failing to address his motion to file a second
amended complaint. This Court agrees. On July 12,
2016, after the trial justice raised the issue of the civil
death statute sua sponte, plaintiff moved for leave to
file a second amended complaint and provided a copy
to the trial justice. Without addressing plaintiff ’s motion, the trial justice granted defendants’ motion to
dismiss the case on the basis of § 13-6-1. The plaintiff ’s proposed second amended complaint specifically
named Galligan in his individual and official capacities
and raised, for the first time, claims under 42 U.S.C.
§§ 1983 and 1988; the Eighth and Fourteenth Amendments to the United States Constitution; the Rhode Island Constitution; and the Rhode Island Civil Rights
Act.
The plaintiff attempted to add a § 1983 claim because, he contends, that statute precluded the Superior
Court from dismissing his complaint based on his interpretation that § 1983 “invalidates any state law
which stands in the way of any person filing suit to
vindicate violation of federal protected rights” “under
color of law[.]” The plaintiff has failed to produce any
authority that holds that a state court is bound to hear

App. 48a
a § 1983 action where this Court has deemed the party
to be civilly dead. Rather, plaintiff simply argues that
the phrase “or other proper proceeding for redress” set
forth in § 19833 must include “not only violations of
civil rights under color of law, but also related tortious
acts associated with the violation of constitutional
rights—and that any state law which prevents anyone
from filing suit is invalid under the broad language of
§ 1983.” (Emphasis in original.) The plaintiff ’s generic
assertions are unaccompanied by jurisdictional support, which will be necessary on remand.
Under this Court’s procedural law, plaintiff is prohibited from adding new claims and new parties six
years after his injury and after the statute of limitations has run. See DeSantis v. Prelle, 891 A.2d 873, 878
(R.I. 2006) (holding that the plaintiff was barred from
bringing a claim against a new party after the threeyear statute of limitations had run). The practice of
changing the entire nature of a case from a negligence
claim to a civil rights action after the trial was scheduled to begin has been condemned by this Court. See
3

The plaintiff points to 42 U.S.C. § 1983, which provides, in
relevant part:
“Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any State or
Territory or the District of Columbia, subjects, or
causes to be subjected, any citizen of the United States
or other person within the jurisdiction thereof to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall be liable to
the party injured in an action at law, suit in equity, or
other proper proceeding for redress * * * .” (Emphasis
added.)

App. 49a
Faerber v. Cavanagh, 568 A.2d 326, 330 (R.I. 1990) (“An
addition of a new claim close to trial when discovery
is essentially complete and trial strategy already
planned invariably delays the resolution of a case, and
delay itself may be considered prejudicial * * * especially where excessive delay has already occurred.”
(quoting Andrews v. Bechtel Power Corporation, 780
F.2d 124, 139 (1st Cir. 1985))). The trial justice correctly noted in her decision dismissing the case:
“There was no 1983 claim pled or filed. This
case was ready trial. It was ready trial on a
negligence suit. The plaintiff did not plead
any civil rights action. And I understand that
we have very liberal pleading in our state.
However, the fact is this case was a go for trial.
It was a go on a negligence claim. And it was
not a go on a civil rights claim. It’s too late.”
Nevertheless, we conclude that the trial justice
should have addressed the plaintiff ’s second amended
complaint before granting the defendants’ motion to
dismiss. Although we consistently have held “that the
decision to grant or to deny a motion to amend a complaint is confided to the sound discretion of the hearing
justice[,]” the trial justice is nonetheless required to
rule on the motion. Harodite Industries, Inc., 24 A.3d
at 529. This Court cannot review the trial justice’s decision granting or denying a motion to amend for abuse
of discretion if the trial justice has not exercised that
discretion. See id.; see also Normandin, 621 A.2d at
715. We are of the opinion that the plaintiff is entitled,

App. 50a
at the very least, to a reasoned decision on his motion
for leave to file an amended complaint.
Conclusion
Accordingly, we vacate the judgment of the Superior Court and remand this case to the Superior Court
with directions to hear and decide the plaintiff ’s motion to amend his complaint—upon the merits of which
we take no position. The papers may be remanded to
the Superior Court.

App. 51a
STATE OF RHODE ISLAND AND
PROVIDENCE PLANTATIONS
PROVIDENCE, SC.

SUPERIOR COURT

DAWN GALLOP

)
)
VS.
) CASE NO: PC/2010-6627
)
ADULT CORRECTIONAL )
INSTITUTE, et al
)
HEARD BEFORE THE
HONORABLE JUSTICE SARAH TAFT-CARTER
ON THURSDAY, JULY 28, 2016
MOTION TO DISMISS
APPEARANCES:
RONALD J. RESMINI, ESQUIRE
............................................... FOR THE PLAINTIFF
KELLY MCELROY, ESQUIRE and
MICHAEL RESNICK, ESQUIRE
OFFICE OF THE ATTORNEY GENERAL
......................................... FOR THE DEFENDANTS
IAN ROSADO, PRO SE
MARY M. GUGLIETTI, RPR
CERTIFIED COURT REPORTER

App. 52a
CERTIFICATION
I, Mary M. Guglietti, hereby certify that the succeeding pages, 1 through 12, inclusive, are a true and
accurate transcript of my stenographic notes.
/s/ Mary M. Guglietti
MARY M. GUGLIETTI, RPR
Certified Court Reporter
[1] THURSDAY, JULY 28, 2016
MORNING SESSION
THE COURT:

Call this case, please.

THE CLERK: All right. Your Honor, the
matter before the Court is PC/2010-6627, Dana Gallop
v. The Adult Correctional Institute.
Would the plaintiff please rise. Please state your
name and date of birth for the record, sir.
MR. GALLOP:

Dana Gallop, October 22nd,

1984.
THE CLERK: Thank you. And would the
plaintiff ’s attorney please state your name.
MR. RESMINI:

Ronald Resmini.

THE CLERK: Thank you. And would the defendant please rise and state your name, sir, and date
of birth.
MR. ROSADO:

Ian Rosado, 4-6-91.

App. 53a
THE CLERK:
attorney.

Thank you. And the State’s

MS. MCELROY: Good morning, Your Honor.
Kelly McElroy for the state defendants.
MR. RESNICK:
nick for the same.

Your Honor, Michael Res-

THE COURT: Thank you. Mr. Rosado, you
represent yourself, correct?
MR. ROSADO:
THE COURT:
seated, sir.

Yes.
Thank you. You may be

Before the Court are two motions. One is the state
[2] defendants’ motion to dismiss for lack of subject
matter jurisdiction. The second is the plaintiff ’s motion to amend the complaint. I have received and reviewed the motions and the objections.
Mr. Resmini, is there anything you would like to
place on the record?
MR. RESMINI: Yes, if I may, Your Honor.
May I please? I mentioned to counsel a moment ago
that – two revelations I’ve had in the last 12 hours. One
was at one o’clock in the morning, it had to do with a
review of that statute, civil death statute, 13 whatever
it is.
THE COURT:

13-6-1.

App. 54a
MR. RESMINI: 6-1. And in taking a close
look at that, it mentions that the individual surrenders
his civil rights, then it goes into the exceptions, into
certain domestic categories, and it talks about property
rights. But what it doesn’t mention at all is any type of
assaulting to the person. So with that curiosity, you
know, begging me, I then took a look at I think it’s Section 1983, the Civil Rights Act, which we tend in our
memorandum to go back to to try to draw some life into
the case, and in that particular Civil Rights Act they
talk about injuries to the person.
So my thought was that I think really when that
statute came into play, and is very seldom put in [3]
application, they never – they never intended to give
up one’s cannon law rights that he would. have, I say,
continued throughout his existence, whether he’s serving a life sentence without parole, no matter what the
case may be. And, you know, there’s an old analogy that
we say that no legislative words are ever to – ever produced or placed on our books for posterity if it produces
an absurd result, and there’s no question at all that the
conclusion of the statute, if taken without my explanation of it, produces an absurd result. That’s number
one.
Number two. This I picked up 25 minutes ago, and
I shared both of these with counsel, that when I reviewed Lawyers Weekly this morning before I came
over here, there was a case in there just recently decided by Judge Gibney, coincidentally called Dana Corporation versus whomever, and in there Judge Gibney
addressed the factual scenario that is – or allowed her

App. 55a
to come to a conclusion that the defense was forfeited.
She used the term forfeiture. And the facts in that case
were such as that when this case commenced, the defense firm filed defenses for jurisdictional issues, but
they waited two and a half years to file their motion to
dismiss. So she indicated that the – to attack subject
matter personal jurisdiction was lost under a theory of
forfeiture. She [4] also researched in her opinion before
she came to that conclusion the Federal Court citations
to see if there was any – any cases that she could, you
know, put her hands on to draw some reference to. According to my circumspect review of those comments
made from that opinion, it appeared that there wasn’t
any that she could draw her conclusions on except her
own analysis and experience as a judicial officer before
this court practicing as she did many years before
she became a judicial representative from the State of
Rhode Island.
So having read both of those and come to those
kind of observations, which I didn’t really get into in
my briefs, we, both of our – he and I and Kelly McElroy
I think have done I think a yeoman’s job in attempting
to address all potential issues that could, you know, involve all the parties in this case. And I think that’s the
only elements that I would offer outside my – my written memorandums for the Court to consider in making
its decision.
THE COURT: Thank you. Just a couple of
points before I hear from the defense. This case was
assigned – you recall this case was assigned to me for a
trial. We had a trial date certain that was to have started

App. 56a
I believe approximately a month, ago. As typically happens, we had. a chambers conference to determine witness order, [5] talk about when jury instructions are
due and the like. Now, during that chambers conference, it was the court who raised the issue of 13-6-1,
life prisoners deemed civilly dead, and I felt it was so
significant I raised it sua sponte. And the matter was
continued until today so the attorneys could be afforded the opportunity to research, brief and discuss
on the record the impact of the civil death statute on
this case.
In addition, the pro se or self-represented litigant,
Mr. Rosado, was also given the opportunity – I believe
the clerk gave him a copy of the case or a motion that
was filed, and he too had the opportunity and time to
look into this issue.
So the suggestion that the defense needs to file a
motion to amend their answer to include the jurisdictional issue I don’t really think applies here since the
Court is the one that raised this issue and afforded the
attorneys and the self-representing litigant to further
brief and discuss the issue.
I’ll hear from the State.
MR. RESNICK: Thank you, Your Honor. I’ll
just address the two points that Mr. Resmini just
raised.
As far as the language of the statute, it’s incredibly
broad. Mr. Resmini seemed to isolate the term “civil
rights,” but that statute says to all civil rights [6] and

App. 57a
relations of any nature whatsoever, so I think it’s much
broader than that. And as to the case which was just
mentioned by Mr. Resmini, I have not had a chance to
review it in its entirety, but personal jurisdiction is
something that can be waived. It can be forfeited. It’s
incredibly different than the subject matter jurisdiction as just noted by the Court.
There is one other issue that I did not brief that I
would like to bring to the Court’s attention, I had told
Mr. Resmini about it, and it’s more aimed at the motion
to amend.
In the motion to amend and also in the motion to
dismiss, there’s the concept that somehow this statute
would be preempted by a Section 1983 cause of action.
There is no controlling law from the First Circuit. The
Fourth Circuit has entertained it, but there’s nothing
from our high court, there’s nothing from the First Circuit on that issue.
But it’s actually a very complex issue, because if
this case was brought in Federal Court, the Federal
Rules of Civil Procedure would apply. And Federal Rule
of Civil Procedure 17, which I have a copy for the Court
if you wish to see it, 17(b)(1) talks about the capacity.
An individual who is not – who is not acting in a representative capacity is determined by the law of the [7]
individual’s domicile.
So 13-6-1 not only creates the subject matter jurisdiction argument that we’re making, but it goes to the
capacity of these individuals, this class of individuals,
to bring a suit. And even federal law says that capacity

App. 58a
is a state law issue, so we don’t even need to go to the
Erie doctrine because it’s actually stated right in the
Federal Rules of Civil Procedure.
As to our motion to dismiss, Your Honor, I have
nothing to add, but I’d certainly open myself up to any
questions as to distinguishing Boyajian from this case,
why the reference to Section 1983 in hopes of defeating
our motion to dismiss is inappropriate.
And as to plaintiff ’s motion to amend, I would
simply open myself up to questions regarding undue
delay, the extreme prejudice to the State, and also our
futility argument based on statute of limitations and
some other grounds, and I’m ready to answer any questions.
THE COURT:

Thank you. Ms. McElroy.

MS. MCELROY:
Honor. Thank you.
THE COURT:
address the Court?
MR. ROSADO:

I have nothing to add, Your

Mr. Rosado, would you like to
NO.

THE COURT: Thank you. The plaintiff in
this case, [8] as I stated earlier, argues that the defendant should file a motion for leave to amend. I gave my
thoughts on that, but I will cite a case in support of my
statements. Bruce Brayman Builders v. Lamphere, 109
A.3d 395; Ryan v. DeMello, 354 A.2d 734; State v. Kenney, 523 A.2d 853.

App. 59a
The plaintiff also relies on Bogosian v. Vaccaro,
which is found at 422 A.2d 1253, that’s a Rhode Island
1980 case, in arguing that this complaint ought not to
be dismissed.
The Court finds factual distinction between this
case and the Bogosian case. First, Mr. Vaccaro, in Bogosian v. Vaccaro, was the defendant, and it was the
defendant who attempted to utilize the 13-6-1 statute
that’s at issue here as a shield from liability. He attempted to nullify an agreement that he made with the
plaintiff based on the statute. In that case the Supreme
Court said no, he could not use 13-6-1 to nullify the
agreement. That’s just a very basic rendition of what
the Supreme Court said. It was a real estate commission case. In ruling, the Court said the commission was
earned when the plaintiff produced a ready, willing
and able buyer and this happened before the conviction was final, and the Court talked about the finality
of conviction as it relates to 13-6-1. That case is factually distinct.
[9] Here, the plaintiff is seeking to proceed with a
claim after the imposition of the final judgment of conviction. He seeks to proceed with his trial and seeks
judgment against the defendants. 13-6-1 is clear and
unambiguous. A person serving life in prison shall,
with respect to all rights of property and all civil rights,
be deemed dead as if his or her natural life had been
taken at the time of the conviction.
This Court has no jurisdiction to hear this case.
Therefore, the complaint is dismissed.

App. 60a
The plaintiff also argues that the statute is invalid
under the Supremacy Clause because it impairs the
plaintiff ’s right to sue under 42 U.S.C. 1983 and that
the 1983 statute invalidates any state law that precludes access to state remedies to file suit to litigate
claims. The plaintiff raises these issues based on what
I perceive as a generic assertion in his complaint that
the action violates his civil rights.
I’ve read the complaint. I’ve read the pretrial
memos. There was no claim, specific claim. There was
no 1983 claim pled or filed. This case was ready trial.
It was ready trial on a negligence suit. The plaintiff did
not plead any civil rights action. And I understand that
we have very liberal pleading in our state. However,
the fact is this case was a go for trial. It was a go on a
[10] negligence claim. And it was not a go on a civil
rights claim. It’s too late. It was not until after, after
the eve of trial that the civil rights statutes were even
mentioned. They were not before the Court and they
are not now before the Court.
I will not weigh in at this point on whether or not
this statute is unconstitutional or anything like that.
I’m weighing in on the facts of the case that’s presented
in front of me. I have no jurisdiction. The motion to dismiss is granted.
As the motion to dismiss is granted, there is no
need for me at this point to discuss the motion to
amend. Counsel please prepare the appropriate order.

App. 61a
MR. RESMINI: Your Honor, may I be allowed to make a short comment, is it permissible under
the circumstances?
THE COURT: You can make a comment, but
I’m not changing my mind.
MR. RESMINI: I understand. Just for the
record, because you know it’s going to go up to the Supreme Court.
THE COURT:

Yes.

MR. RESMINI: As the Court notes – and I’m
sure the Court has spent sufficient time to come to its
conclusion based on your reviewing of the entire materials that you’ve had before you, but we take the position that the [11] complaint that was originally filed,
then called – the second one was called amended complaint, in Paragraph 2 when we used the terminology
that they violated his civil rights, we feel that the specificity does not have to be elaborated in order to incorporate, you know, the golden words of 1983. The case
that T would substantiate for that on pleadings is Placido v. Mello, which adopted the – which had adopted an
earlier case, a domestic case, called Mateer v. Mateer.
And also if you look at the form pleadings in the
Rules of Civil Procedure, which hasn’t been changed
since Lang before anyone here was born, that – it indicates they’re very, very, very, very vague pleading requirements. So for those reasons, we feel we satisfied
the rule. And of course, throughout the course of the trial,
depending how the evidence was going, we certainly

App. 62a
would have been prepared to do jury instructions that
would incorporate with more specificity the civil rights
violation.
And since it’s going up to the Supreme Court,
would just like to add this, which is more encompassing rather than partially legalistic, that the review of
the entire file in my experience with this case, we
would press, if the case gets returned back for a trial
on its merits, that we don’t hold, realistically speaking,
this [12] gentleman to my right to be the grave man of
the deed. We will argue, and I think successfully, that
the so-called green light was given to attack this gentleman, that this gentleman to my right –
THE COURT:
aren’t before the Court.

You’re arguing facts that

MR. RESMINI: I know. I just want to – I
wanted to have that as a little caveat to go up to the
Supreme Court.
THE COURT:
MR. RESMINI:

You can brief that.
All right. I’ll let it rest at

that.
THE COURT:
MR. RESMINI:

Thank you.
You’re welcome.

THE COURT: And I do stand a bit corrected.
It was an amended complaint and it was Paragraph 2,
but at the pretrial memo, I’m going to cite to Paragraph
IV, complex legal issues, it’s all in terms of duty and
negligence and respondeat superior. There’s nothing,

App. 63a
nothing, nothing that indicates that this is a civil
rights action. Your objection is noted for the record.
Counsel please prepare the appropriate order.
MR. RESNICK:

Thank you, Your Honor.

THE COURT: Don’t forget to send a copy of
the order to Mr. Rosario. Thank you.
(ADJOURNED)

App. 64a
STATE OF RHODE ISLAND SUPREME COURT
DANA GALLOP,
Appellant
SUPREME COURT
NO. SU-2018-0246-A
ADULT CORRECTIONAL (Prov. Superior Court
INSTITUTIONS;
No. PC-2010-6627)
IAN ROSADO, ALIAS;
MATTHEW GALLIGAN,
STATE OF RHODE
ISLAND; And VARIOUS
JOHN DOES
Appellees
v.

APPELLANT’S RULE 12A STATEMENT
NOW COMES the Appellant, Dana Gallop (hereinafter “Plaintiff ” or by name), and submits this Rule
12A Statement, alleging that the Superior Court below
erred 1) in failing to address Plaintiff ’s argument that
RIGL 13-6-1 violates the federal Supremacy Clause,
and in failing to allow Plaintiff ’s longstanding state
law tort claims to proceed; and 2) in denying Plaintiff ’s
Second Motion to Amend his Complaint in its entirety.
Background Facts and Travel:
The history of this case is familiar to this Court.
Gallop v. Adult Corr. Institutions, 182 A.3d 1137 (R.I.
2018). On or about April 26, 2010, Dana Gallop was a
pretrial detainee housed at the Adult Correctional Institute, in Module E, at the Intake Center in Cranston,
Rhode Island. At this time, he sustained severe and

App. 65a
permanent injuries, after being attacked by inmate
and defendant Ian Rosado, allegedly with the knowledge and acquiescence of Defendant Correctional Officer Matthew Galligan.
Plaintiff filed an initial complaint on November
10, 2010. An amended complaint was allowed on April
12, 2013 – prior to the three years expiring to amend a
complaint to add new claims. On June 22, 2016, the day
before the trial was scheduled to start, the Superior
Court, in chambers, sua sponte raised the issue of the
Civil Death Statute § 13-6-1. Defendant’s counsel then
filed a motion to dismiss and supporting memorandum
based on the civil death statute.
On July 12, 2016, Plaintiff filed a Motion for Leave
to file a Second Amended Complaint, and annexed a
proposed Second Amended Complaint – adding specificity to his claims, which were necessitated in part by
Defendant’s 11th hour motion to dismiss based on the
civil death statute, as Plaintiff ’s civil rights claim
alone defeats the civil death statute.
Defendant’s filed an objection to Plaintiff ’s Motion
for Leave to File the Second Amended Complaint on
the grounds of undue delay, prejudice and futility. Defendant’s argued the civil rights claims were outside
the statute of limitations, by failing to acknowledge
that the “civil rights” violation was specified in Count
II of the timely filed complaint in 2013.
On July 22, 2016, Plaintiff filed his objection to Defendant’s Motion to Dismiss based on the Civil Death
Statute. Plaintiff argued that: (1) the Civil Death

App. 66a
statute was not applicable under Bogosian v. Vaccaro,
422 A.2d 1253 (RI. 1980), as Plaintiff ’s conviction was
not final until 4 years after the injury; (2) the Civil
Death Statute in Rhode Island is invalid under the Supremacy Clause to the extent it impairs plaintiff s capacity to sue under 42 USC § 1983 and other civil
statutes; and (3) 42 USC 1983 invalidates any State
law that precludes access to State remedies available
to file suit to litigate claims directly associated with violation of any federal right under color of law.
On July 26, 2016, Plaintiff filed a Reply to Defendant’s Objection to the Motion for Leave to file the Second Amended Complaint. Plaintiff argued that the
Defendant’s objections based on prejudice and undue
delay were insufficient as a matter of law, that the
amendment was not futile as the Civil Rights claim
had been filed in 2013 before the statute of limitations
had expired; and that the Civil Death Statute did not
apply.
On July 28, 2016, after hearing arguments, the
trial court granted Defendant’s Motion to Dismiss
based on the Civil Death Statute, and held that there
was no need to address the Motion for Leave to File the
Second Amended Complaint. The trial court ruled that
on the eve of trial the case was a negligence claim, and
not a civil rights claim. The trial court did not rule on
the issue of RIGL 13-6-1 being unconstitutional under
the Supremacy Clause. An Order entered. Mr. Gallop
appealed to this Court, raising 4 direct issues:

App. 67a
A. The Trial Court erred in Ruling that the
Civil Death Statute Required Dismissal
of the Complaint
B.

The Trial Court erred as the Civil Death
Statute in RI is Invalid under the Supremacy Clause to the Extent it Impairs
A Plaintiff ’s Capacity to Sue under 42
USC 1983 and other Civil Statutes

C.

42 USC 1983 Invalidates any state law
that precludes access to state remedies
available to file suit to litigate claims directly associated with violations of any
federal rights under color of law

D. The Trial Court erred in ruling the case
was not a civil rights case and in not addressing the Motion for Leave to file the
Second Amended Complaint
(Exhibit ___ annexed). This Court reached Issues A, C,
and D, but ambiguously addressed Point B’s “and
other Civil Statutes” (specifically 13-6-1) as being
unconstitutional under the federal Supremacy Clause.
In the Gallop opinion, “and other Civil Statutes” of
Point B was omitted from the opinion listing the issues
presented:
Before this Court, plaintiff argues that: (1) the
trial court erred in ruling that the civil death
statute required dismissal of the complaint;
(2) the trial court erred because the civil death
statute in Rhode Island, to the extent that it
impairs a person’s capacity to sue under 42
U.S.C. § 1983 [omitted is “and other Civil

App. 68a
Statutes”], is invalid under the Supremacy
Clause of the United States Constitution; (3)
any state law that precludes access to state
remedies available to litigate claims for alleged violations of any federal rights under
color of law is invalidated by § 1983; and (4)
the trial court erred in ruling that this case
was not a civil rights action and in failing to
address plaintiff ’s motion for leave to file a
second amended complaint.
Gallop v. Adult Corr. Institutions, 182 A.3d 1137, 1139
(R.I. 2018). This Gallop opinion is ambiguous as to the
Supremacy Clause argument as to “other Civil Statutes” – specifically 13-6- 1, and it appears from the Gallop opinion that this Court left the door opened for this
issue to be wanted this addressed on remand with the
1983 issue, which it was argued concurrently with.
This Court stated that the Superior Court was justified
in dismissing the Complaint under 13-6-1 as a matter
of state law, and then directed the plaintiff to provide
authority on remand for the argument that state tort
claims must be allowed under 1983/federal laws:
The plaintiff attempted to add a § 1983 claim
because, he contends, that statute precluded
the Superior Court from dismissing his complaint based on his interpretation that § 1983
“invalidates any state law which stands in the
way of any person filing suit to vindicate violation of federal protected rights” “under color
of law[.]” The plaintiff has failed to produce
any authority that holds that a state court is
bound to hear a § 1983 action where this Court
has deemed the party to be civilly dead Rather,

App. 69a
plaintiff simply argues that the phrase “or
other proper proceeding for redress” set forth
in § 1983 must include “not only violations of
civil rights under color of law, but also related
tortious acts associated with the violation of
constitutional rights – and that any state law
which prevents anyone from filing suit is invalid under the broad language of § 1983.”
(Emphasis in original.) The plaintiff ’s generic
assertions are unaccompanied by jurisdictional support, which will be necessary on remand.
Gallop v. Adult Corr. Institutions, 182 A.3d 1137, 1144
(R.I. 2018). On May 8, 2018, this Court vacated the
judgment of the Superior Court, and also ordered the
Superior Court to address Plaintiff ’s Motion for Leave
to File a Second Amended Complaint.
On remand, the Superior Court directed the parties to file briefing on these issues. Plaintiff raised the
issue that under federal law, 13-6-1 was unconstitutional under the Supremacy Clause, and that the negligence and other state law tort claims survive; and
that the Court should allow the Motion for Leave to
File a Second Amended Complaint, at a minimum, to
the extent of the negligence and other state law claims
set forth in Counts 2-6. The State defendant’s objected,
stating that the Superior Court should reach the merits of the Motion for Leave to file the Second Amended
Complaint before reaching Plaintiff ’s argument that
the federal Supremacy Clause prohibits the application of RIGL 13-6-1. On July 28, 2018, the Superior
Court proceeded as requested by the State defendants

App. 70a
and denied the Motion for Leave to File the Second
Amended Complaint in its entirety, without addressing the Supremacy Clause issue. The Superior Court
did acknowledge that Plaintiff had pled a “violation of
civil rights” in the amended complaint filed in 2013
prior to the expiration of the statute of limitations, but
held that Plaintiff waived the 1983 claim by not pursuing it.
ARGUMENT
I.

UNDER FEDERAL LAW AND US SUPREME
COURT PRECEDENT GALLOP’S STATE
LAW TORT CLAIMS MUST BE ALLOWED
TO PROCEED AS RIGL 13-6-1 IS UNCONSTITUTIONAL

Prisoners have a fundamental right to access the
courts, established in a series of important cases, including Ex parte Hull, 312 U.S. 546 (1941), Johnson v.
Avery, 383 U.S. 483 (1969), and Bounds v. Smith, 430
U.S. 817 (1977); See also Wolff v. McDonnell, 418 U.S.
539, 555-56 (1974)(prisoners “retain right of access to
the courts”). This right allows prisoners to file civil
claims. The right is so fundamental that it requires a
prison to fund a way for prisoners to have meaningful
access to the courts. Bounds v. Smith, 430 U.S. at 825,
828.
The preemption doctrine arises from the United
States Constitution’s Supremacy Clause, Art. VI, cl. 2,
which provides:

App. 71a
This Constitution, and the Laws of the United
States which shall be made in Pursuance
thereof; and all Treaties made, or which shall
be made, under the Authority of the United
States, shall be the supreme Law of the Land;
and the Judges in every State shall be bound
thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.
If the provisions of a state law are “inconsistent with
an act of Congress, they are void, as far as that inconsistency extends.” Gibbons v. Ogden, 22 U.S. (9 Wheat)
1, 31 (1824). The federal Supremacy Clause overrides
state constitutional and statutory provisions contrary
to federal constitutional and statutory law. Bailey v.
Laurie, 118 R.I. 184, 189, 373 A.2d 482, 485 (1977).
Rhode Island is the only court in the continental
United States which allows its civil death statute to
foreclose a prisoner serving a life sentence from pursuing a civil claim in court. In this respect, every other
State’s civil death statute has been either struck down
as unconstitutional or the respective legislative body
has repealed it.
Applying federal constitutional law, court after
court squarely faced with a civil death statute precluding an inmate from accessing the courts has struck it
down as violative of the First Amendment, Due Process
Clause, and for Equal Protection Clause of the U.S.
Constitution. See e.g., Holman v. Hilton, 712 F.2d 854
(3rd Cir. 1983) (finding New Jersey’s civil death statute
unconstitutional as due process violation when it

App. 72a
barred inmate serving life sentence from accessing the
courts); Thompson v. Bond, 421 F. Supp. 878, 885-886
(W.D. Mo. 1976) (“Mo. Rev. Stat. § 222.010 (1969), insofar as it purports to suspend the civil rights or declare
the civil death of adults sentenced to imprisonment in
an institution within the Missouri Department of Corrections for a term of years or for a term of life, is unconstitutional, null and void, in violation of the First
and Fourteenth Amendments to the Constitution of
the United States, and enforcement thereof shall be,
and is hereby, enjoined”); Delorme v. Pierce Freightlines
Co., 353 F. Supp. 258 (D.Or. 1973) (“We decide this [civil
death statute] case on the basis of the Equal Protection
Clause alone, although we believe there is much merit
in Delorme’s other arguments. There is no dispute that
the goals of preventing pointless litigation and rehabilitating prisoners are constitutionally permissible.
But if ORS 137.240 is to withstand the test of the
Equal Protection Clause, defendants must also show
that these goals are rationally related to the action
taken by the State, which suspends the right of an imprisoned felon to litigate his legal claims. Reed v. Reed,
404 U.S. 71, 92 S. Ct. 251, 30 L. Ed. 2d 225 (1971). Defendants have not made such a showing. We find that
the means used here to accomplish the State’s purposes are impermissibly broad”); McCuiston v. Wanicka, 483 So. 2d 489, 491 (Fla 2nd DCA 1986) (Florida
civil death statute unconstitutional in that it violated
both the state and federal constitutions as it foreclosed
assaulted prisoner from pursuing civil action in court);
Chesapeake Utilities Corp. v. Hopkins, 340 A.2d 154
(Del. 1975) (Delaware Constitution overcomes the

App. 73a
common law doctrine of “civil death”); Davis v. Pullium,
484 P.2d 1306 (Okla. 1971) (“civil death” statute no defense to a personal injury action, due to Oklahoma
Constitution holding that state’s courts open to “every
person”).1
In Gallop, this Court opined that New York and
Rhode Island are the only two states in the US that
have civil death statutes, but New York’s civil death
statute was struck down in part as unconstitutional 45
years ago on federal grounds because it precluded a
prisoner serving a life sentence from accessing the
courts. Bilello v. A.J. Eckert Co., 42 A.D.2d 243, 346
N.Y.S.2d 2 (1973).2 The New York legislature subsequently amended its “civil death” statute 58 days after
the Bilello court issued its opinion on July 12, 1973,
and permanently removed its provisions banning life
1

The Oklahoma Constitution relied upon in Davis and Article I, Section 5 of the Rhode Island Constitution use the same
“every person” language. RIGL 13-6-1 violates the RI Constitution, as Section 5 of Article I provides:
“Entitlement to remedies for injuries and wrongs –
Right to justice. – Every person within this state ought
to find a certain remedy, by having recourse to the
laws, for all injuries or wrongs which may be received
in one’s person, property, or character. Every person
ought to obtain right and justice freely, and without
purchase, completely and without denial; promptly and
without delay; conformably to the laws.”
2
See United States v. Nesbeth, 188 F. Supp. 3d 179, 181
(E.D.N.Y. 2016)(commentators express that the continuation of
civil death, “[e]ven watered down and euphemistically denominated ‘civil disabilities,’ . . . functioned after the Civil War to perpetuate the social exclusion and political disenfranchisement of
African-Americans.”)

App. 74a
prisoners from accessing the courts. N.Y. Civ. Rights
Law §§ 79 and 79-a; L 1973, ch. 687, eff. Sept 9, 1973.
The federal Supremacy Clause overrides all state
constitutional and statutory provisions contrary to federal constitutional and statutory law. See e.g., Haywood v. Drown, 556 U.S. 729, 737, 129 S. Ct. 2108, 173
L. Ed. 2d 920 (2009) (New York law that stripped state
courts of jurisdiction over § 1983 actions against correctional officers violated the Supremacy Clause, because the state law was “contrary to Congress’
judgment that all persons who violate federal rights
while acting under color of state law shall be held liable for damages.”)
II.

THE SUPERIOR COURT ERRED IN ADDRESSING THE MOTION FOR LEAVE TO
AMEND THE COMPLAINT FIRST, INSTEAD OF FIRST ADDRESSING THE CIVIL
DEATH STATUTE BEING INVALID UNDER
FEDERAL LAW; THE CIVIL DEATH STATUTE SHOULD HAVE BEEN STRUCK DOWN
AS INVALID AND THE MOTION TO AMEND
SHOULD HAVE BEEN GRANTED IN PART
AS TO THE SOME OR ALL OF THE STATE
LAW TORT COUNTS, 2-6

This Court “has consistently held that trial justices should liberally allow amendments to the pleadings.” Serra v. Ford Motor Credit Co., 463 A.2d 142, 150
(Rd.1983). This rule promotes the goal of resolving disputes on their merits, rather than through blind adherence to procedural technicalities. Inleasing Corp. v.

App. 75a
Jessup, 475 A.2d 989 (R.I. 1984). The granting or denial
of a motion to amend is within the discretion of the
trial justice, and the Court will not disturb such a ruling absent a clear showing that such discretion was
abused. Id. The burden rests on the party opposing the
motion to show it would incur substantial prejudice if
the motion were granted. Wachsberger v. Pepper, 583
A.2d 77 (R.I. 1990). This Court has consistently permitted amendments to pleadings “absent a showing of extreme prejudice.” Mikaelian v. Drug Abuse Unit, 501
A.2d 721, 722 (R.I. 1985). A trial justice’s discretion in
granting a motion to amend “is inherently constrained
by the plain language of Rule 15(a) and our cases interpreting the same; the proverbial scales are tipped at
the outset in favor of permitting the amendment.”
Harodite Indus., Inc. v. Warren Elec. Corp., 24 A.3d 514,
531 (R.I. 2011).
Defendants argued that the instant case is one of
extreme prejudice, based completely of the addition of
and pursuit of the 1983 claim set forth in Count 1.3
With the 1983 count set aside, the state law tort counts
list as 2-6 should have been allowed to go forward in
part or as a whole, as they are primarily the same
claims from the beginning, so there is no prejudice at
all. For example, in Inleasing, supra, this Court concluded that the trial justice abused his discretion by
3

In fact, the Court has upheld a trial court’s granting of motions to amend one day before trial was scheduled to commence,
see Mikaelian v. Drug Abuse Unit, 501 A.2d 721, 722-23 (R.I.
1985), and even after trial had begun. See Bourbon“s, Inc. v. ECIN
Industries, Inc., 704 A.2d 747, 751-52 (R.I. 1997).

App. 76a
not allowing the defendant to amend his answer even
though the motion to amend was made after a thirtyday trial notice had been issued and more than three
years after the initial answer was filed. Id. The Inleasing Court cited Howey v. United States, 481 F.2d 1187,
1190 (9th Cir.1973)(court found no reason to deny an
amendment by the plaintiff even though it was offered
on the second day of trial and five years after the action
was commenced); see also Ricard v. John Hancock Mutual Life Insurance Co., 113 RI. 528, 539, 324 A.2d 671,
677 (1974) (trial justice abused discretion by denying
motion to amend for only reason that “the case had
gone on too long on the basis of the [original] pleadings”); Wilkinson v. Vesey, 110 R.I. 606, 295 A.2d 676
(1972) (allowing amendment after completion of trial);
Local 850, Intl Assoc. of Firefighters v. Pakey, 107 R.I.
125, 265 A.2d 730 (1970) (permitting amendment after
trial judge granted motion to dismiss).
Alternatively, due to RIGL 13-6-1 being unconstitutional, at a minimum, Plaintiff ’s First Amended
Complaint from 2013 should have remained valid.
CONCLUSION
WHEREFORE, Appellant prays that this Honorable
Court reverse the ruling of the Superior Court and (1)
find RIGL 13-6-1 invalid under Supremacy Clause; (2)
hold that the Superior Court erred in not ruling on this
issue first; and (3) find that the Superior Court erred
in not allowing the Motion for Leave to File the Second
Amended Complaint’s state law tort Counts 26 in part

App. 77a
or as a whole, or alternatively, find that the 2013
Amended Complaint’s State law tort counts survived
due to the RIGL 13-6-1 being invalid under the Supremacy Clause.
Respectfully submitted,
Appellant Dana Gallop,
By his Attorneys,
/s/ Ronald J. Resmini
/s/ Ronald J. Resmini
Ronald J. Resmini, Esq. (#0484)
Adam J. Resmini, Esq, (#8141)
155 South Main Street, Ste. 400
Providence, RI 02903
Tel: (401) 751-8855
Fax: (401) 737-6464
Email: Resminilaw@yahoo.com
[Certificate Of Service Omitted]

App. 78a
STATE OF RHODE ISLAND
PROVIDENCE, SC.

SUPERIOR COURT

DANA GALLOP
v.

C.A. NO. PC10-6627

STATE OF RHODE ISLAND,
Department of Corrections;
IAN ROSADO, ALIAS;
MATTHEW GALLIGAN,
JOHN DOES,
Defendants
PLAINTIFF’S BRIEFING OF ISSUES UPON
REMAND FROM RI SUPREME COURT
Plaintiff Dana Gallop submits this briefing on the
issues to be resolved upon remand of this case from the
Rhode Island Supreme Court.
Background Facts and Travel:
On or about April 26, 2010, Dana Gallop was a pretrial detainee housed at the Adult Correctional Institute, in Module E, at the Intake Center in Cranston,
Rhode Island. At this time, he sustained severe and
permanent injuries, after being attacked by inmate
Ian Rosado.
The basic premise of this action is that prison
guards are charged with the duty under State and Federal law to reasonably protect inmates incarcerated at
the ACI from injuries or assaults by other inmates.

App. 79a
Plaintiff filed an initial complaint on November
10, 2010. An amended complaint was allowed on April
12, 2013 – prior to the three years expiring to amend a
complaint to add new claims. Count II of amended complaint filed in 2013 adds that plaintiff ’s claims are
based on violations of his “civil rights.”
On June 22, 2016, the day before the trial was
scheduled to start, this Court, in chambers, sua sponte
raised the issue of the Civil Death Statute § 13-6-1. Defendant’s counsel then filed a motion to dismiss and
supporting memorandum based on the civil death statute. On July 12, 2016, Plaintiff filed a Motion for Leave
to file a Second Amended Complaint, and annexed a
proposed Second Amended Complaint – adding specificity to his claims, which were necessitated in part
by Defendant’s 11th hour motion to dismiss based on
the civil death statute, as Plaintiff ’s civil rights claim
alone defeats the civil death statute.
Defendant’s filed an objection to Plaintiff ’s Motion
for Leave to File the Second Amended Complaint on
the grounds of undue delay, prejudice and futility. Defendant’s argued the civil rights claims were outside
the statute of limitations, by failing to acknowledge
that the “civil rights” violation was specified in Count
II of the timely filed complaint in 2013.
On July 22, 2016, Plaintiff filed his objection to Defendant’s Motion to Dismiss based on the Civil Death
Statute. Plaintiff argued that: (1) the Civil Death statute was not applicable under Bogosian v. Vaccaro, 422
A.2d 1253 (R.I. 1980), as Plaintiff ’s conviction was not

App. 80a
final until 4 years after the injury; (2) the Civil Death
Statute in Rhode Island is invalid under the Supremacy Clause to the extent it impairs plaintiff ’s capacity
to sue under 42 USC § 1983 and other civil statutes;
and (3) 42 USC 1983 invalidates any State law that
precludes access to State remedies available to file suit
to litigate claims directly associated with violation of
any federal right under color of law.
On July 26, 2016, Plaintiff filed a Reply to Defendant’s Objection to the Motion for Leave to file the
Second Amended Complaint. Plaintiff argued that the
Defendant’s objections based on prejudice and undue
delay were insufficient as a matter of law, that the
amendment was not futile as the Civil Rights claim
had been filed in 2013 before the statute of limitations
had expired; and that the Civil Death Statute did not
apply.
On July 28, 2016, after hearing arguments, the
trial court granted Defendant’s Motion to Dismiss
based on the Civil Death Statute, and held that there
was no need to address the Motion for Leave to File
the Second Amended Complaint. The Trial Court ruled
that on the eve of trial the case was a negligence claim,
and not a civil rights claim. The trial court did not rule
on the issue of the Civil Death Statute being unconstitutional. An Order entered.
Mr. Gallop appealed to the Rhode Island Supreme
Court. He raised 4 direct issues:

App. 81a
A. The Trial Court erred in Ruling that the
Civil Death Statute Required Dismissal
of the Complaint
B.

The Trial Court erred as the Civil Death
Statute in RI is Invalid under the Supremacy Clause to the Extent it Impairs
A Plaintiff ’s Capacity to Sue under 42
USC 1983 and other Civil Statutes

C.

42 USC 1983 Invalidates any state law
that precludes access to state remedies
available to file suit to litigate claims directly associated with violations of any
federal rights under color of law

D. The Trial Court erred in ruling the case
was not a civil rights case and in not addressing the Motion for Leave to file the
Second Amended Complaint
(Exhibit A annexed). The RI Supreme Court only
reached the first issue and found that this Court was
justified in dismissing the Complaint under state law,
and then vacated the judgment of this Court and directed this Court to address the remaining issues –
which are whether the Civil Death statute is invalidated by the Supremacy Clause and Federal law, and
the failure of this court to address plaintiff ’s Second
Amended Complaint. The Gallop Court explained:
The Second Amended Complaint
On appeal, plaintiff argues that the trial justice erred in failing to address his motion to
file a second amended complaint. This Court
agrees. On July 12, 2016, after the trial justice

App. 82a
raised the issue of the civil death statute sua
sponte, plaintiff moved for leave to file a second amended complaint and provided a copy
to the trial justice. Without addressing plaintiff ’s motion, the trial justice granted defendants’ motion to dismiss the case on the basis
of § 13-6-1. The plaintiff ’s proposed second
amended complaint specifically named Galligan in his individual and official capacities
and raised, for the first time, claims under
42 U.S.C. §§ 1983 and 1988; the Eighth and
Fourteenth Amendments to the United States
Constitution; the Rhode Island Constitution;
and the Rhode Island Civil Rights Act.
The plaintiff attempted to add a § 1983 claim
because, he contends, that statute precluded
the Superior Court from dismissing his complaint based on his interpretation that § 1983
“invalidates any state law which stands in the
way of any person filing suit to vindicate violation of federal protected rights” “under color
of law[.]” The plaintiff has failed to produce
any authority that holds that a state court is
bound to hear a § 1983 action where this Court
has deemed the party to be civilly dead. Rather, plaintiff simply argues that the phrase
“or other proper proceeding for redress” set
forth in § 1983 must include “not only violations of civil rights under color of law, but also
related tortious acts associated with the violation of constitutional rights—and that any
state law which prevents anyone from filing
suit is invalid under the broad language of
§ 1983.” (Emphasis in original.) The plaintiff ’s
generic assertions are unaccompanied by

App. 83a
jurisdictional support, which will be necessary on remand.
Gallop v. Adult Corr. Institutions, No. 2016-278-APPEAL., 2018 WL 2107853, at *5 (R.I. May 8, 2018). Due
to the prior judgment of this Court being “vacated” by
the RI Supreme Court, the issue of whether RIGL 136-1 is unconstitutional under the Supremacy Clause
and federal law is ripe for disposition, as it has yet to
be addressed by this Court or the Supreme Court.
ARGUMENT
I.

UNDER FEDERAL LAW AND US SUPREME
COURT PRECEDENT GALLOP’S CLAIMS
MUST BE ALLOWED TO PROCEED AS
RIGL 13-6-1 IS UNCONSTITUTIONAL

The preemption doctrine arises from the Supremacy Clause, Art. VI, cl. 2, which provides:
This Constitution, and the Laws of the United
States which shall be made in Pursuance
thereof; and all Treaties made, or which shall
be made, under the Authority of the United
States, shall be the supreme Law of the Land;
and the Judges in every State shall be bound
thereby, any Thing in the Constitution or
Laws of any State to the Contrary notwithstanding.
If the provisions of a state law are “inconsistent with
an act of Congress, they are void, as far as that inconsistency extends.” Gibbons v. Ogden, 22 U.S. (9 Wheat)
1, 31 (1824). Of course, the federal Supremacy Clause

App. 84a
overrides state constitutional and statutory provisions
contrary to federal constitutional and statutory law.
Bailey v. Laurie, 118 R.I. 184, 189, 373 A.2d 482, 485
(1977).
On July 12, 2016, Gallop filed his objection to the
State’s Motion to Dismiss under RIGL 13-6-1. Mr.
Gallop’s third argument was that:
C. THE CIVIL DEATH STATUTE IN
RHODE ISLAND IS INVALID UNDER THE
SUPREMACY CLAUSE TO THE EXTENT IT
IMPAIRS PLAINTIFF’S CAPACITY TO SUE
UNDER 42 USC 1983 AND OTHER CIVIL
STATUTES
This was also the second issue raised on direct appeal.
(Exhibit A)
On appeal, Gallop clearly raised the issue that the
Supremacy Clause and federal law forbid the use of the
“civil death” statute to foreclose Mr. Gallop’s claims.
The Rhode Island Supreme Court upheld the dismissal
on state law grounds, but did not reach the Supremacy
Clause and federal law issues directly raised by Gallop
at the trial court level and on direct appeal – and the
specific language on remand as well as the failure to
address these issues in this Court or on appeal leaves
open the question as to whether the Supremacy Clause
and/or federal law forbids the application of “civil
death” statutes to foreclose Mr. Gallop’s claims. This
question must be answered in the affirmative.
It should not surprise this Court that Rhode Island is the only court in the continental United States

App. 85a
which allows its civil death statute to foreclose a prisoner serving a life sentence from pursuing a civil claim
in court. In this respect, every other State’s civil death
statute has been either struck down as unconstitutional under the Federal Constitution by state or federal courts or the respective legislative body has
repealed it.
In Gallop, our Supreme Court opined that Mr.
Gallop “has failed to produce any authority that holds
that a state court is bound to hear a § 1983 action where
this Court has deemed the party to be civilly dead.”
First, it is well settled that any “state law rules or practices that may inhibit the prosecution of § 1983 actions
in state courts are preempted by the Supremacy
Clause of the United States Constitution.” L.A. Ray
Realty v. Town Council of Town of Cumberland, 698
A.2d 202, 221 (R.I. 1997). Second, the United States
Supreme Court has explicitly established that prisoners have a fundamental right to access the courts in a
series of important cases, including Ex party Hull, 312
U.S. 546 (1941), Johnson v. Avery, 383 U.S. 483 (1969),
and Bounds v. Smith, 430 U.S. 817 (1977). This right
allows prisoners to file civil claims.1 The right is so
1

See also Wolff v. McDonnell, 418 U.S. 539, 555-56, 94 S. Ct.
2963, 2974 (1974):
[A] prisoner is not wholly stripped of constitutional protections when he is imprisoned for crime. There is no
iron curtain drawn between the Constitution and the
prisons of this country. Prisoners have been held to
enjoy substantial religious freedom under the First
and Fourteenth Amendments. Cruz v. Beto, 405 U.S.
319 (1972); Cooper v. Pate, 378 U.S. 546 (1964). They

App. 86a
fundamental that it requires a prison to fund a way
for prisoners to have meaningful access to the courts.
Bounds v. Smith, 430 U.S. at 825, 828. In Wolff v.
McDonnell, 418 U.S. 539, 94 S. Ct. 2963 (1974), the
United States Supreme Court explained that:
The right of access to the courts, upon which
Avery was premised, is founded in the Due
Process Clause and assures that no person
will be denied the opportunity to present to
the judiciary allegations concerning violations of fundamental constitutional rights. It
is futile to contend that the Civil Rights Act of
1871 has less importance in our constitutional
scheme than does the Great Writ. The recognition by this Court that prisoners have certain
constitutional rights which can be protected
by civil rights actions would be diluted if inmates, often “totally or functionally illiterate,”
were unable to articulate their complaints to
the courts. Although there may be additional
burdens on the Complex, if inmates may seek
help from other inmates, or from the inmate
retain right of access to the courts, Younger v. Gilmore, 404 U.S. 15 (1971), aff ’g Gilmore v. Lynch, 319
F.Supp. 105 (ND Cal. 1970); Johnson v. Avery, 393 U.S.
483 (1969); Ex parte Hull, 312 U.S. 546 (1941). Prisoners are protected under the Equal Protection Clause of
the Fourteenth Amendment from invidious discrimination based on race. Lee v. Washington, 390 U.S. 333
(1968). Prisoners may also claim the protections of the
Due Process Clause. They may not be deprived of life,
liberty, or property without due process of law. Haines
v. Kerner, 404 U.S. 519 (1972); Wilwording v. Swenson,
404 U.S. 249 (1971); Screws v. United States, 325 U.S.
91 (1945).

App. 87a
adviser if he proves adequate, in both habeas
and civil rights actions, this should not prove
overwhelming.
Wolff v. McDonnell, 418 U.S. at 579, 94 S. Ct.
at 2986
Again, the federal Supremacy Clause overrides
state constitutional and statutory provisions contrary
to federal constitutional law. Bailey v. Laurie, 118 R.I.
184, 189, 373 A.2d 482, 485 (1977). See Haywood v.
Drown, 556 U.S. 729, 737, 129 S. Ct. 2108, 173
L. Ed. 2d 920 (2009) (New York law that stripped
state courts of jurisdiction over § 1983 actions against
correctional officers violated the Supremacy Clause,
because the state law was “contrary to Congress’ judgment that all persons who violate federal rights while
acting under color of state law shall be held liable for
damages.”) Clearly, RIGL 13-6-1 violates the Supremacy Clause to the extent that it bars a prisoner from
pursuing valid civil claims in the courts.
II. COURT AFTER COURT HAS STRUCK DOWN
“CIVIL DEATH” STATUTES LIKE RIGL
13-6-1 AS UNCONSTITUTIONAL, AS THEY
PRECLUDE A LIFE PRISONER FROM ACCESSING THE COURTS
Applying federal constitutional law, it is a fact
that court after court squarely faced with a civil death
statute precluding an inmate from accessing the
courts has struck down the statute as violative of the
First Amendment, Due Process Clause, and/or Equal

App. 88a
Protection Clause of the U.S. Constitution. See e.g.,
Holman v. Hilton, 712 F.2d 854 (3rd Cir. 1983) (finding
New Jersey’s civil death statute unconstitutional as
due process violation when it barred inmate serving
life sentence from accessing the courts); Thompson v.
Bond, 421 F. Supp. 878, 885-886 (W.D. Mo. 1976) (“Mo.
Rev. Stat. § 222.010 (1969), insofar as it purports to
suspend the civil rights or declare the civil death of
adults sentenced to imprisonment in an institution
within the Missouri Department of Corrections for a
term of years or for a term of life, is unconstitutional,
null and void, in violation of the First and Fourteenth
Amendments to the Constitution of the United States,
and enforcement thereof shall be, and is hereby, enjoined”); Delorme v. Pierce Freightlines Co., 353 F. Supp.
258 (D.Or. 1973) (“We decide this [civil death statute]
case on the basis of the Equal Protection Clause alone,
although we believe there is much merit in Delorme’s
other arguments. There is no dispute that the goals
of preventing pointless litigation and rehabilitating
prisoners are constitutionally permissible. But if ORS
137.240 is to withstand the test of the Equal Protection
Clause, defendants must also show that these goals are
rationally related to the action taken by the State,
which suspends the right of an imprisoned felon to litigate his legal claims. Reed v. Reed, 404 U.S. 71, 92
S. Ct. 251, 30 L. Ed. 2d 225 (1971), Defendants have
not made such a showing. We find that the means used
here to accomplish the State’s purposes are impermissibly broad”); McCuiston v. Wanicka, 483 So. 2d 489,
491 (Fla 2nd DCA 1986) (Florida civil death statute
unconstitutional in that it violated both the state and

App. 89a
federal constitutions as it foreclosed assaulted prisoner from pursuing civil action in court); Chesapeake
Utilities Corp. v. Hopkins, 340 A.2d 154 (Del. 1975)
(Delaware Constitution overcomes the common law
doctrine of “civil death”); Davis v. Pullium, 484 P.2d
1306 (Okla. 1971) (“civil death” statute no defense to a
personal injury action, due to Oklahoma Constitution
holding that state’s courts open to “every person”).2
In Gallop, our Supreme Court acknowledged that
New York and Rhode Island are the only two states in
the US that have civil death statutes, but the Court
failed to mention that New York’s civil death statute
was struck down as unconstitutional 45 years ago on
federal grounds because it precluded a prisoner serving a life sentence from accessing the courts. Bilello v.
A.J. Eckert Co., 42 A.D.2d 243, 346 N.Y.S.2d 2 (1973).3
2

The Oklahoma Constitution relied upon in Davis and Article I, Section 5 of the Rhode Island Constitution use the same
“every person” language. RIGL 13-6-1 violates the RI Constitution, which provides:
“Entitlement to remedies for injuries and wrongs –
Right to justice. – Every person within this state ought
to find a certain remedy, by having recourse to the
laws, for all injuries or wrongs which may be received
in one’s person, property, or character. Every person
ought to obtain right and justice freely, and without
purchase, completely and without denial; promptly and
without delay; conformably to the laws.”
3
See United States v. Nesbeth, 188 F. Supp. 3d 179, 181
(E.D.N.Y. 2016) (commentators express that the continuation of
civil death, “[e]ven watered down and euphemistically denominated ‘civil disabilities,’ . . . functioned after the Civil War to perpetuate the social exclusion and political disenfranchisement of
African-Americans.”)

App. 90a
The New York legislature subsequently amended its
“civil death” statute 58 days after the Bilello court issued its opinion on July 12, 1973, and permanently
removed its provisions banning life prisoners from
accessing the courts. N.Y. Civ. Rights Law §§ 79 and
79-a; L 1973, ch. 687, eff. Sept 9, 1973. See also Johnson
v. Rockefeller, 365 F. Supp. 377, 380 (S.D.N.Y. 1973).
In Almond v. Kent, 459 F.2d 200 (4th Cir. 1972), the
court invalidated Virginia statutes (impairing access
to filing a civil action under s. 1983) along with Rule
17(b) of the Federal Rules of Civil Procedure to the extent that they ran afoul of the clearly expressed intent
of 1983. The court explained that it was the unanimous
view of the courts that civil death statutes were invalid
if they impaired pursuit of a claim under 42 USC 1983.
See Almond, 459 F.2d at 203 (“We, therefore, conclude
that for purposes of suits under § 1983, the language
of § 1983, affording the right to sue to “any citizen of
the United States . . . within the jurisdiction thereof,”
who has been deprived of any right, privilege or immunity, should prevail over the conflicting policy purportedly expressed in Rule 17(b) when applied in the
light of the rationale of Virginia statutes”).
The RI Civil Death statute is an unconstitutional
statute and void as applied to this case. This is the last
court in the 50 States comprising the United States to
have a Civil Death statute barring an inmate from pursuing a civil action in our courts, and it is long overdue
that this unconstitutional practice be extinguished.

App. 91a
III. DUE TO THE CIVIL DEATH STATUTE BEING UNCONSTITUTIONAL UNDER FEDERAL
LAW AND VIOLATING THE SUPREMACY
CLAUSE, THIS COURT SHOULD GRANT
PLAINTIFF ’S MOTION FOR LEAVE TO
FILE HIS SECOND AMENDED COMPLAINT AND ALLOW HIM TO PROCEED
AS TO COUNTS 2-6
This RI Supreme Court “has consistently held that
trial justices should liberally allow amendments to the
pleadings.” Serra v. Ford Motor Credit Co., 463 A.2d
142, 150 (R.I.1983). This rule promotes the goal of resolving disputes on their merits, rather than through
blind adherence to procedural technicalities. Inleasing
Corp. v. Jessup, 475 A.2d 989 (R.I. 1984). The granting
or denial of a motion to amend is within the discretion
of the trial justice, and the Court will not disturb such
a ruling absent a clear showing that such discretion
was abused. Id. The burden rests on the party opposing
the motion to show it would incur substantial prejudice if the motion were granted. Wachsberger v. Pepper,
583 A.2d 77 (R.I. 1990). This Court has consistently
permitted amendments to pleadings “absent a showing
of extreme prejudice.” Mikaelian v. Drug Abuse Unit,
501 A.2d 721, 722 (Rd. 1985). A trial justice’s discretion
in granting a motion to amend “is inherently constrained by the plain language of Rule 15(a) and our
cases interpreting the same; the proverbial scales are
tipped at the outset in favor of permitting the amendment.” Harodite Indus., Inc. v. Warren Elec. Corp., 24
A.3d 514, 531 (R.I. 2011).

App. 92a
Defendants may argue that the instant case is
one of extreme prejudice, based mainly on grounds of
delay. Yet the Court has stressed that “mere delay is
not enough to deny [an] amendment,” absent substantial prejudice to the opposing party. Bourdon Inc. v.
Ecin Industries Inc., 740 A.2d 747 (R.I. 1997).4 For example, in Inleasing, supra, this Court concluded that
the trial justice abused his discretion by not allowing
the defendant to amend his answer even though the
motion to amend was made after a thirty-day trial notice had been issued and more than three years after
the initial answer was filed. Id.; see also Ricard v. John
Hancock Mutual Life Insurance Co., 113 R.I. 528, 539,
324 A.2d 671, 677 (1974) (trial justice abused discretion by denying motion to amend for only reason that
“the case had gone on too long on the basis of the [original] pleadings”); Wilkinson v. Vesey, 110 R.I. 606, 295
A.2d 676 (1972) (allowing amendment after completion
of trial); Local 850, Int’l Assoc. of Firefighters v. Pakey,
107 R.I. 125, 265 A.2d 730 (1970) (permitting amendment after trial judge granted motion to dismiss).
In this case, the Supreme Court ruled that the
Civil Rights counts were not pleaded until after the
three-year Statute of Limitations passed. Gallop v.
Adult Corr. Institutions, No. 2016-278-APPEAL., 2018
WL 2107853, at *6. This is a point Gallop strongly
4

In fact, the Court has upheld a trial court’s granting of motions to amend one day before trial was scheduled to commence,
see Mikaelian v. Drug Abuse Unit, 501 A.2d 721, 722-23 (R.I.
1985), and even after trial had begun. See Bourbon”s, Inc. v. ECIN
Industries, Inc., 704 A.2d 747, 751-52 (R.I. 1997).

App. 93a
disagrees with. However, even with Count 1 of the
Second Amended complaint set aside, the Second
Amended Complaint clarifies the tort claims raised in
the original Complaint and Amended Complaint. The
pleading format and tort counts set forth in Counts 26 make the case much easier to navigate. The State of
Rhode Island, Matthew Galligan, and Ian Rosado cannot complain that they are prejudiced as they were
named as defendants in the First Amended Complaint
filed prior to the three-year statute of limitations expiring.
The State has previously alleged that defendant
correctional officer Galligan was sued in his official
capacity, and as a result, damages are not available
under section 1983. However, the amended complaint
from 2013 in this case does not mention anything
about defendant Galligan being sued in his official capacity. In their Appellee’s Brief, the State admitted
that “The First Amended Complaint added Officer
Galligan as a defendant, but nowhere states in what
capacity he is sued.” Appellee’s Brief, p. 21. The original
amended complaint from 2013 is filed against Defendant Galligan in his individual capacity, as plaintiff ’s
original amended complaint case is identical to the
one filed in Andrade v. Perry, 863 A.2d 1272, 1278 (R.I.
2004) (clear that plaintiff did not sue defendant in his

App. 94a
official capacity, so suit was held to be in individual
capacity).
Respectfully submitted,
Plaintiff Dana Gallop,
By His Attorney,
/s/ Ronald J. Resmini, Esq.
Ronald J. Resmini Law Offices Ltd
155 South Main St – Suite 400
Providence RI 02903-2963
Ph: (401) 751-8855
Fax: (401) 737-6464
Email: Resminilaw@yahoo.com
[Certificate Of Service Omitted]

App. 95a
STATE OF RHODE ISLAND
PROVIDENCE, SC.

SUPERIOR COURT

DANA GALLOP
v.
ADULT CORRECTIONAL
INSTITUTIONS;
IAN ROSADO, ALIAS;
MATTHEW GALLIGAN,
STATE OF RHODE ISLAND;
And VARIOUS JOHN DOES
Defendants

C.A. NO.
PC2010-6627

PLAINTIFF’S OPPOSITION TO STATE’S
MOTION TO DISMISS FOR LACK OF
JURISDICTION PURSUANT TO
GEN. LAWS 1956, & 13-6-1
NOW COMES the plaintiff, Dana Gallop, and
hereby files this objection to the defendant’s motion
to dismiss under the Civil Death Statute, Gen. Laws
1956, § 13-6-1.
BACKGROUND FACTS
On or about April 26, 2010, Plaintiff, Dana Gallop,
was a prisoner, detained in the Adult Correctional Institute (“ACI”), in Module E, at the Intake Center in
Cranston, Rhode Island, where he sustained severe
and permanent injuries, after being attacked by Defendant Ian Rosado. Plaintiff was awaiting sentencing.
A life sentence of imprisonment was imposed on February 15, 2011. Plaintiff appealed his conviction and

App. 96a
sentencing to the Rhode Island Supreme Court. The
conviction was upheld on May 2, 2014.
The basic premise of this action is that prison
guards, such as the Defendants, are charged with the
duty under Rhode Island law to reasonably protect inmates incarcerated at the ACI from injuries or damage
caused by other inmates. On the day prior to Plaintiff
being attacked on April 26, 2010, Defendant Matthew
Galligan (“Galligan”) was advised by Defendant Ian
Rosado (“Rosado”) that he was going to attack Plaintiff.
Defendant Galligan knew and had reason to anticipate: (1) that Plaintiff was in danger; (2) that the aggressor, Defendant Rosado, might attack Plaintiff; and
(3) that Defendant Rosado had dangerous propensities
and/or was likely to be involved in a violent attack
upon Plaintiff.
On information and belief, on April 26, 2010, Defendant Galligan advised Defendant John Does that
Defendant Rosado was going to assault Plaintiff. On
further information and belief, Defendant Galligan left
his post in Module E for approximately 18 minutes, in
order to provide Defendant Rosado with the opportunity to assault Plaintiff. Plaintiff was negligently left
unattended due to the lack of guards posted in the area
who were not fulfilling their responsibilities to provide
appropriate protection and control of inmates and to
prevent certain prisoner assaults and disturbances.
A complaint was filed in 2010, and an amended
complaint was allowed on April 12, 2013. Count II of
the amended complaint states that Plaintiff ’s claims

App. 97a
are based on violations of his civil rights. On June 22,
2016, Defendant’s counsel filed a motion to dismiss
based on the Civil Death Statute, Gen. Laws 1956,
§ 13-6-1. The issue has been briefed by the Plaintiff ’s
counsel. Plaintiff has also filed a motion for leave to file
a second amended complaint, and a copy of the proposed second amended complaint is attached to that
motion, and the second amended complaint clarifies
Plaintiff ’s claims.
ARGUMENT
A. DEFENDANTS MOTION TO DISMISS IS NOT
AUTHORIZED AND MUST BE DENIED
The Defendants have filed a Motion to Dismiss at
the 11th hour based on the Civil Death Statute. However, this is inappropriate. In order to raise this issue,
Defendant’s must file a Motion for Leave to Amend
their Answer to the Complaint to assert this defense.
In 2002, the Honorable Superior Court Justice Clifton
reached the same conclusion:
While analyzing cases regarding Rule 15, the
Rhode Island Supreme Court has pointed out
Rule 15’s apparent conflict with Rule 8 and
Rule 12 of the Rhode Island Civil Procedure.
The court has stated that failure to raise an
affirmative defense in a timely manner constitutes a waiver of that defense in order to
protect the complaining party from unfair
surprise at trial. See World-Wide Computer
Resources v. Arthur Kaufman Sales Co., 615

App. 98a
A.2d 122, 124 (R.I.1992). However, as previously ruled by another justice of the Superior
Court, “[w]hile the general rule requires that
affirmative defenses are waived when not
plead in a party’s answer, failure to raise a defense does not forever preclude a party from
raising it;” and, “[t]he proper remedy for a
party who fails to raise an affirmative defense
is a motion for leave to amend under Rule 15.”
Osborn v. State, 1992 WL 813634, at 1 (R.I.
Super 1992) (quoting 5 Wright, Federal Practice and Procedure 1278 (1982)). Therefore, in
order to resolve the conflict between the rules,
courts must “take into account such elements
as the extent of prejudice, as well as the question of a defendant’s knowledge of circumstances that should have alerted him or her to
the existence of such a defense.” World-Wide
Computer Resources, Inc., 615 A.2d at 124.
Cady v. IMC Mortgage Co., No. CIV.A. 985400, 2002 WL 220899, at *2 (R.I. Super. Jan.
31, 2002), aff ’d in part, rev’d in part sub nom,
Cady v. IMC Mortgage Co., 862 A.2d 202 (R.I.
2004)
B. THE CIVIL DEATH STATUTE IS NOT APPLICABLE UNDER Bogosian v. Vaccaro, 422 A.2d
1253 (R.I. 1980)
Plaintiff ’s conviction was not final until it was affirmed by the Rhode Island Supreme Court on May 2,
2014, which is over four (4) years after the events complained of; and some three and a half (3½) years after

App. 99a
the initial complaint was filed. The Defendant’s motion
to dismiss is easily dispensed with by applying stare
decisis, as the Rhode Island Supreme Court has already denied the retroactive application of this antiquated law:
Section 13-6-1 specifies that the mantle of
civil death falls upon a person sentenced to
life imprisonment “at the time of such conviction.” However, in actuality, a determination
that a person has been imprisoned for life cannot be made until a final judgment of conviction has been entered. Thus, we hold that the
civil-death proviso found in s 13-6-1 cannot be
triggered until such time as there has been a
final judgment of conviction. In State v. Macarelli, 118 R.I. 693, 375 A.2d 944 (1977), we
pointed out that a judgment of conviction is
not final so long as the case is pending on appeal. It is clear from the chronology set forth
earlier in this opinion regarding the time of
the murder trial and the imposition of sentence that the brokerage agreement was executed approximately a year and a half before
Michael’s conviction became final. Consequently, the Vaccaro’s gain no benefit from the
provisions of s 13-6-1.
Bogosian v. Vaccaro, 422 A.2d 1253, 1254 (R.I.
1980).

App. 100a
C. THE CIVIL DEATH STATUTE IN RHODE ISLAND IS INVALID UNDER THE SUPREMACY CLAUSE TO THE EXTENT IT IMPAIRS
PLAINTIFF’S CAPACITY TO SUE UNDER
42 USC 1983 AND OTHER CIVIL STATUTES
The preemption doctrine arises from the supremacy clause of the Constitution. If the provisions of a
state law are “inconsistent with an act of Congress,
they are void, as far as that inconsistency extends.”
Gibbons v. Ogden, 22 U.S. (9 Wheat) 1, 31 (1824). Any
“state law rules or practices that may inhibit the prosecution of § 1983 actions in state courts are preempted
by the Supremacy Clause of the United States Constitution.” L.A. Ray Realty v. Town Council of Town of
Cumberland, 698 A.2d 202, 221 (R.I. 1997); see also
Bailey v. Laurie, 118 R.I. 184, 189, 373 A.2d 482, 485
(1977) (supremacy clause overrides state constitutional provisions contrary to federal constitutional
law). The Civil Death Statute in Rhode Island is such
a law.
The Civil Death Statute in Rhode Island was enacted in 1909, at a time when some states were implementing archaic punitive laws. It provides as follows:
§ 13-6-1. Life prisoners deemed civilly
dead
Every person imprisoned in the adult correctional institutions for life shall, with respect
to all rights of property, to the bond of matrimony and to all civil rights and relations of
any nature whatsoever, be deemed to be dead
in all respects, as if his or her natural death

App. 101a
had taken place at the time of conviction.
However, the bond of matrimony shall not be
dissolved, nor shall the rights to property or
other rights of the husband or wife of the imprisoned person be terminated or impaired,
except on the entry of a lawfully obtained decree for divorce.
P.L. 1915, ch. 1261, § 1; P.L. 1956, ch. 3721, § 1.
Codifications: G.L. 1909, ch. 354, § 59; G.L.
1923, ch. 407, § 59; G.L. 1938, ch. 624, § 1.
By the 1960’s, nearly every state repealed these
laws. Rhode Island is one of the only states with such
a law remaining on its books. Bogosian v. Vaccaro, 422
A.2d 1253, 1255 n.2 (R.I. 1980) (“Today, Rhode Island
is one of a very small number of states that still retain
civil-death statutes.”)
In his first amended complaint, Plaintiff complains in Count II that he has been deprived of his civil
rights.1 In the proposed second amended complaint,
Plaintiff more specifically alleges the civil rights violations under 42 USC 1983, which provides:

1

In the instant case, plaintiff has alleged in Count II of the
amended complaint that the defendants have violated his civil
rights. See 42 USC 1983. Felder v. Casey, 487 U.S. 131 (1988).
The federal constitution mandates that a prison guard has a duty
to protect a prisoner from attack by another prisoner. Farmer v.
Brennan, 511 U.S. 825 (1994). Under state law, prison officials
likewise owe a duty of ordinary or reasonable care to safeguard
prisoners in their custody or control from attack by other prisoners. Saunders v. State, 446 A.2d 748, 750 (R.I. 1982).

App. 102a
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of the United States or other person
within the jurisdiction thereof to the deprivation of any rights, privileges, or immunities
secured by the Constitution and laws, shall be
liable to the party injured in an action at law,
suit in equity, or other proper proceeding for
redress . . . (emphasis supplied)
(R.S. § 1979; Pub. L. 96–170. § 1, Dec. 29, 1979,
93 Stat, 1284; Pub. L. 104–317, title III,
§ 309(c), Oct. 19, 1996, 110 Stat. 3853.)
In Almond v. Kent, 459 F.2d 200 (4th Cir. 1972), the
court invalidated several Virginia statutes (impairing
access to filing a civil action under s. 1983) along with
Rule 17(b) of the Federal Rules of Civil Procedure to
the extent that they ran afoul of the clearly expressed
intent of 1983. The court explained that it was the
unanimous view of the courts that civil death statutes
were invalid if they impaired pursuit of a claim under
42 USC 1983 – such as the Rhode Island statute at issue:
Other courts have held that statutes rendering prisoners civiliter mortuus cannot affect
their capacity to maintain a suit under § 1983
despite Rule 17(b). McCollum v. Mayfield, 130
F. Supp. 112 (N.D.Cal.1955), aff ’d. sub nom.
Weller v. Dickerson, 314 F.2d 598 (9 Cir. 1963),
cert. den., 375 U.S. 845, 84 S. Ct. 97, 11
L.Ed.2d 72 (1963); Beyer v. Werner, 299

App. 103a
F. Supp. 967 (E.D.N.Y.1969); Siegel v. Ragen,
88 F. Supp. 996 (N.D.Ill.1949), aff ’d., 180 F.2d
785 (7 Cir. 1950), cert. den., 339 U.S. 990, 70
S. Ct. 1015, 94 L. Ed. 1391 (1950), rehearing
den., 340 U.S. 847, 71 S. Ct 12, 95 L. Ed. 621
(1950). The district court thought these cases
distinguishable, since they concerned statutes
making suit by a convict totally impossible;
but in McCollum, we observe that the California statute allowed the Adult Authority discretion to restore a prisoner’s rights which it
had not done in that case. 130 F. Supp. at 115116.
Almond v. Kent, 459 F.2d at 202 (emphasis supplied).
See also Almond, 459 F.2d at 203 (“We, therefore, conclude that for purposes of suits under § 1983, the language of § 1983, affording the right to sue to “any
citizen of the United States . . . within the jurisdiction
thereof,” who has been deprived of any right, privilege
or immunity, should prevail over the conflicting policy
purportedly expressed in Rule 17(b) when applied in
the light of the rationale of Virginia statutes”).
D. 42 USC 1983 INVALIDATES ANY STATE LAW
THAT PRECLUDES ACCESS TO STATE
REMEDIES AVAILABLE TO FILE SUIT TO
LITIGATE CLAIMS DIRECTLY ASSOCIATED
WITH VIOLATION OF ANY FEDERAL RIGHTS
UNDER COLOR OF LAW
Plaintiff has made his case that 42 USC 1983 invalidates the Rhode Island Civil Death Statute. However, 42 USC 1983 appears to invalidate any state law

App. 104a
which stands in the way of any person filing suit to
vindicate violations of federal protected rights, even
when the suit filed asserts only claims directly associated with the violations of federal protected rights:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage . . .
subjects . . . any citizen of the United States to
the deprivation of any rights . . . secured by
the Constitution and laws, shall be liable to
the party injured in an action at law, suit in
equity, or other proper proceeding for redress . . .
The clause “other proper proceeding for redness” must
have a meaning beyond “[a 1983] action at law, suit in
equity,” because these phrases are together in the 1983
statute.
A basic principle of statutory interpretation is
that courts should “give effect, if possible, to every
clause and word of a statute, avoiding, if it may be,
any construction which implies that the legislature
was ignorant of the meaning of the language it employed.” Montclair v. Ramsdell, 107 U.S. 147, 152
(1883). The modem variant is that statutes should be
construed “so as to avoid rendering superfluous” any
statutory language: “A statute should be construed so
that effect is given to all its provisions, so that no part
will be inoperative or superfluous, void or insignificant. . . .” Hibbs v. Winn, 542 U.S. 88, 101 (2004); see
also Sprietsma v. Mercury Marine, 537 U.S. 51, 63
(2003) (interpreting word “law” broadly could render

App. 105a
word “regulation” superfluous in preemption clause
applicable to a state “law or regulation”); and Bailey
v. United States, 516 U.S. 137, 146 (1995) (“We assume
that Congress used two terms because it intended
each term to have a particular, nonsuperfluous meaning.”)
The clause “other proper proceeding for redress”
obviously has a meaning beyond “an action at law, suit
in equity.” In order to avoid it being surplusage, it must
mean that “other” state proceedings are available to
remedy not only violations of civil rights under color of
law, but also related tortious acts associated with the
violation of constitutional rights – and that any state
law which prevents anyone from filing suit is invalid
under the broad language of 1983.
It should also be pointed out that if this case was
filed in federal court under 42 U.S.C. § 1983, the court
would have jurisdiction to adjudicate the state law
claims presented because they arise out of “a common
nucleus of operative fact.” 28 U.S.C. § 1367. It would be
an absurd result if the Civil Death Statute defense to
1983 related claims is precluded in federal courts, but
allowed in Rhode Island courts.

App. 106a
CONCLUSION
Based on the foregoing reasons, the Defendant’s Motion to Dismiss must be denied.
Plaintiff,
Dana Gallop,
By his Attorneys,
/s/ Ronald J. Resmini
Ronald J. Resmini, Esquire (0484)
Adam J. Resmini, Esquire (8141)
155 South Main Street, Suite 400
Providence, RI 02903
Tel: (401) 751-8855
Fax: (401) 737-6464
[Certificate Of Service Omitted]

